<html>
<title> - ACCOUNTABILITY AND IDEA: WHAT HAPPENS WHEN THE BUS DOESN'T COME ANYMORE?</title>
<body><pre>[Senate Hearing 107-672]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-672

 
                 ACCOUNTABILITY AND IDEA: WHAT HAPPENS 
                   WHEN THE BUS DOESN'T COME ANYMORE?
=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

   EXAMINING THE IMPLEMENTATION OF THE INDIVIDUALS WITH DISABILITIES 
EDUCATION ACT, FOCUSING ON ACCOUNTABILITY FROM THE FEDERAL GOVERNMENT, 
  AND A COLLABORATION BETWEEN INSTITUTIONS OF HIGHER EDUCATION, LOCAL 
     SCHOOLS, AND SCHOOL FACULTIES FOR TEACHER PREPARATION PROGRAMS

                               __________

                              JUNE 6, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions






                       U. S. GOVERNMENT PRINTING OFFICE
80-206                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman
CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio
           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director





                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                         Thursday June 6, 2002

                                                                   Page
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1
Brown, Marisa C., Parent, Vienna, VA.............................     5
Gordon, David W., Superintendent, Elk Grove Unified School 
  District, Elk Grove, CA........................................    10
Shaw, Stan, Ed.D., Professor and Coordinator, Special Education 
  Program, University of Connecticut, Storrs, CT.................    12
Mayerson, Arlene, Directing Attorney, Disability Rights Education 
  Defense Fund, Inc., Berkeley, CA...............................    17
Gloeckler, Lawrence C., Deputy Commissioner, Vocational and 
  Educational Services for Individuals with Disabilities (VESID), 
  New York State Education Department, Albany, NY................    23

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Vernon, Nancy, prepared statement............................    52


    ACCOUNTABILITY AND IDEA: WHAT HAPPENS WHEN THE BUS DOESN'T COME 
                                ANYMORE?

                              ----------                              


                         THURSDAY, JUNE 6, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:40 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator Kennedy 
(chairman of the committee) presiding.
    Present: Senators Kennedy, Dodd, Jeffords, Reed, and 
Clinton.

                  Opening Statement of Senator Kennedy

    The Chairman. We will come to order.
    I understand we have some very special guests here. They 
just happen to be from Massachusetts and from Salem State. Do 
they want to just stand up so I can see you all? We are 
grateful and hope you will enjoy the hearing.
    Today's hearing is on the steps that we must take to bring 
the promise of the Individuals with Disabilities Education Act 
to every disabled child in America. With the enactment of the 
Education for the Handicapped Act in 1975 and the later passage 
of IDEA, we opened the schoolhouse doors to millions of 
students with disabilities. We said it is the law of the land 
that children with disabilities must have the opportunity to 
learn alongside their non-disabled peers and ultimately live 
independent and productive lives.
    Before that time, more than a million children with 
disabilities received no educational services at all, and 
countless other remain unaccounted for. IDEA reversed those 
outdated and inappropriate policies and practices that hindered 
the progress of children with disabilities.
    But we still have a long way to go. Education is a civil 
right for every child in America, including those with special 
needs. As this committee considers the reauthorization of IDEA 
this year, our work on this reauthorization bill will be based 
on three important principles: accountability, quality, and 
coordination.
    Our hearing today will focus on the importance of an 
accountable educational system that ensures that children with 
disabilities receive their civil right to a free and 
appropriate public education. Although children with 
disabilities now have a guarantee to an education, they do not 
always receive the quality of education they deserve to succeed 
in school or in later life.
    We must work to improve the implementation and enforcement 
of this law so it focuses on educational results and is 
accountable for delivering the level of academic support and 
instruction that children with disabilities need to succeed. We 
must work to do better to improve the academic outcomes of 
children with disabilities.
    An accountable education system must also provide the 
supports and services needed for disabled students to 
successfully transition from school to employment or higher 
education later in life. In order to do this, we must ensure 
greater high school completion, begin working with students and 
their families early in their high school years to develop a 
career plan, and strengthen the relationship between schools 
and vocational rehabilitation programs to provide greater 
opportunities for postsecondary employment and education.
    The foundation of a strong and accountable educational 
system for disabled students also relies on ensuring highly 
qualified and well-trained personnel to support the learning of 
children and provide good instructions. We are facing the 
familiar challenges of teacher recruitment, training, and 
retention in reaching our goal of ensuring a highly qualified 
teacher for all students with disabilities.
    The special education teaching force has doubled in two 
decades thanks to Federal assistance provided through IDEA. 
However, too many of our general education teachers still lack 
the training necessary to serve students with disabilities, and 
too many school districts across the country are in need of 
special education teachers. In fact, by the year 2005, we will 
face a shortage of 200,000 special education teachers--200,000 
special education teachers. Enormously important.
    Most importantly, schools need the financial resources to 
do their job. It is time for the Federal Government to be 
accountable, meet the goal to fully fund IDEA at the 40 percent 
promise. It has been over 25 years since that promise was made. 
It is high time to fulfill it. Fully funding IDEA moves us 
closer to ensuring the success of every child by supporting the 
goal of public education to give all children the opportunity 
to pursue their dream.
    We are fortunate today to have knowledgeable witnesses from 
across the country to offer their insights on how to improve 
our special education system. We are looking forward to hearing 
from the witnesses.
    I would ask, Senator Reed, if you wanted to say a brief 
word?
    Senator Reed. No, Mr. Chairman. I just want to commend you 
on this hearing. It is important, and I am looking forward to 
hearing the witnesses.
    Thank you.
    The Chairman. We are joined by Senator Jeffords, who was 
the real architect of the original legislation in the House of 
Representatives, and who has been long committed and has 
demonstrated his commitment on this by exercising extraordinary 
moral courage in recent times, and at other times. Would you 
like to say a word?
    Senator Jeffords. I appreciate the remarks very much and am 
looking forward to the testimony. I am so anxious to hear the 
testimony that I will not have any opening statement.
    The Chairman. Fine. Good.

                  Prepared Statement of Senator Gregg

    Mr. Chairman, I appreciate your holding this hearing today, 
which will include very important discussions about the issues 
of accountability and transition services in the IDEA law. It 
is my desire that our Federal policies on special education 
hold schools accountable for ensuring that disabled students 
receive the education and services they need to succeed and 
become educated and productive citizens when they leave high 
school.
    Earlier this year, we heard from the National Council on 
Disability that every State and the District of Columbia is out 
of compliance with IDEA requirements. This led Assistant 
Secretary Pasternack, testifying before this Committee, to ask 
whether ``it is possible that we have constructed a statute and 
regulations where no State can be in compliance.'' Do the 
statute and regulations make it impossible for any State to be 
in full compliance?
    I seriously doubt that States and school districts are 
failing to comply with all of the 1997 provisions because they 
do not want to assist disabled students. Rather, the lack of 
full compliance is most likely the result of a cumbersome, 
complicated, procedural driven statute and regulations.
    I would also ask another question: When we talk about 
compliance and accountability with IDEA, what are we holding 
schools accountable for? Are we measuring the right things?
    Assistant Secretary Pasternack told us that he believes we 
are too focused on process and not enough on student progress. 
In addition, we heard testimony from a special education 
director who explained that the process and the paperwork 
requirements of IDEA actually impair the ability of districts 
and teachers to deliver the best educational services.
    This is disturbing to me. The emphasis on paperwork and 
process has taken the focus away from improving the educational 
outcomes of disabled students. Educators don't merely complain 
about the emphasis on process, they assert that the 
overemphasis on process has hampered or taken away from 
focusing on and improving academic achievement of students with 
disabilities.
    So it appears that IDEA holds States and districts 
accountable for complying with process, but not for improving 
student outcomes.
    Let me give you a tragic example of this. A recent article 
in Education Week describes the woes of the Baltimore public 
school system's special education services. According to the 
article, despite massive efforts and prolonged U.S. District 
Court supervision since the mid-1980s, Baltimore's special 
education program ``is still squandering too much time and 
money on paperwork and bureaucracy at the expense of better 
instruction.'' While the Baltimore school system has ``met or 
exceeded the mandates of the IDEA and court-imposed procedural 
dictates,'' its special education students ``aren't coming 
close to achieving their academic potential.''
    We need to review carefully the current IDEA law and find 
ways to change this misplaced emphasis on form, and change the 
focus to substance: measuring student improvement. As one of 
our witnesses, Mr. Gloeckler, says in his written testimony, 
``the primary concern of families and schools should be the 
achievement of successful outcomes by students.'' I couldn't 
agree more.
    It is also important that our Federal special education law 
generates high expectations for our special education students. 
This was a major theme in the No Child Left Behind Act, and we 
should carry this theme over into the IDEA law. While special 
education students obviously have challenges that have 
necessitated their need for IDEA services, we have done them a 
disservice by failing to have high expectations of them. 
Children of nearly all abilities respond well when they know 
that people believe they can achieve. The IDEA law must reflect 
this principle of high expectations for all our children to 
succeed.
    Mr. Chairman, many school representatives, policy analysts, 
and even some parents of disabled children believe that the 
current accountability provisions in the IDEA law focus more on 
measuring compliance with legal processes, rather than gauging 
student performance and results.
    While they may be well-intended, the process-oriented 
aspects of IDEA do not relate to improving the performance of 
students with disabilities, but are often a hindrance to 
improving academic achievement. We need to reform IDEA so that 
schools are judged on student progress and outcomes, rather 
than on compliance with overly complex due process rules and 
meaningless reporting requirements that don't lead to academic 
improvement.
    I thank our witnesses for being here today and look forward 
to hearing their testimony.
    The Chairman. So we will start in with our panel, and it is 
an outstanding one.
    For 15 years, Marisa Brown has been an advocate for 
individuals with developmental disabilities. Her volunteer 
activities and roles have included serving as Chair of the 
Virginia State Special Education Advisory Committee. 
Professionally, Ms. Brown is a registered nurse and research 
instructor in the Department of Pediatrics at Georgetown 
University Medical Center. However, Ms. Brown comes today as a 
mother of three young adults, one who experiences Asperger 
syndrome, a form of autism. We thank her for coming and sharing 
her family's personal experience with IDEA.
    David Gordon is superintendent of the Elk Grove Unified 
School District in Sacramento, California. Elk Grove serves 
50,000 students of diverse ethnic and economic backgrounds and 
is one of the fastest-growing districts in the Nation. Mr. 
Gordon's experience as an educator spans 30 years. He started 
his career as a teacher in South Bronx, New York. Since then he 
has had various positions with the California State Department 
of Education. Most recently, he was deputy superintendent of 
public instruction.
    Dr. Stan Shaw is a professor and coordinator of special 
education program, Department of Educational Psychology at the 
University of Connecticut. Dr. Shaw's work focuses on 
professional development for postsecondary disability 
personnel, services for college students with disabilities, 
transition, disability policy and law, and teacher education. 
He is also co-director of the Center on Postsecondary Education 
and Disability. As co-director he works towards implementing 
universal design and instruction to improve college access for 
students with disabilities. He is also the coordinator of the 
University of Connecticut's annual Postsecondary Learning 
Disability Training Institute.
    Arlene Mayerson has been the directing attorney for DREDF 
since 1981. She has dedicated her career to disability rights 
law. She has advised Congress on major disability rights 
legislation for two decades, including Americans with 
Disabilities Act and Handicapped Children's Protection Act. Ms. 
Mayerson has also appeared before the U.S. Supreme Court on key 
disability rights cases. In addition to her position at DREDF, 
Ms. Mayerson is currently a lecturer on disability law at the 
University of California, Berkeley.
    Finally, Lawrence Gloeckler is the deputy commissioner of 
Vocational and Educational Services for Individuals with 
Disabilities, New York State Education Department. In his 
position, he serves as both New York State's director of 
special ed. and State director of vocational rehabilitation. 
Mr. Gloeckler has worked in special education at both the local 
and the university level and has been president of the National 
Association of State Directors of Special Education. This 
organization recognized him with the Heritage Award, which 
recognizes outstanding contributions to special education.
    We truly have an extraordinary panel here this morning, and 
we are very, very grateful to all of them, and we will ask if 
they will proceed in the order that they were introduced.
    Ms. Brown.

        STATEMENT OF MARISA C. BROWN, PARENT, VIENNA, VA

    Ms. Brown. Thank you, Senator Kennedy. Senators Kennedy, 
Jeffords, and Reed, thank you very much for your interest and 
dedication to this very important issue.
    In 1990, when my son Paul was 9 years old, I read a report 
about the academic achievement of students with serious 
behavioral and emotional problems. What I read was chilling. In 
one study, no more than 30 percent of the students were found 
functioning at or above grade level in any academic area. 
Another study cited that students were reading below grade 
level, with deficits becoming more extreme the older the youth.
    In the same study, 55 percent of the sample of students 
identified as having a behavioral or emotional disability 
dropped out of school altogether as compared to 36 percent for 
all other disabilities. In 1989, only 63 percent of these 
students were engaged in productive activities defined as 
schooling, working for pay, volunteering, or receiving job 
skills training. Interestingly enough, in light of current 
expectations, the Personal Responsibility Work Opportunity and 
Reconciliation Act of 1996, the majority of these activities 
measuring post-school success would not count.
    I vowed that my son would not fall victim to these 
statistics. Paul was already aware that his class would 
graduate from high school in the year 2000, and we made that 
our personal goal. Unfortunately, when Paul turned 18, he 
withdrew from school. At that point, he had our full support to 
do so because we had become so frustrated in our inability to 
ensure the school system's accountability for the services for 
which my son had been found eligible.
    There are several points I will make as it relates to 
accountability based on our family's experiences: First, the 
importance of academic preparation; second, the importance of 
keeping kids in school; and, finally, the need to strengthen 
transition planning and services.
    Academic preparation: Paul's IQ scores have always 
indicated that he has the ability to complete grade level work. 
He was placed in four different high schools in the 4 years 
that he attended secondary level schools. Two of those schools 
were regular high schools where Paul received more than 50 
percent of his instruction in segregated classrooms. The other 
two schools were very restrictive placements in which only 
students that had been found eligible as students with serious 
emotional disabilities were admitted.
    What should students and parents expect in terms of 
academic rigor when students are placed in such settings? One 
would think that the ability to provide specialized instruction 
should be possible given the special nature of the setting, the 
smaller class size, and a setting fairly rich in resources to 
provide related services. Our experience was that the academic 
program was secondary to efforts to alter Paul's disability. 
Schools must be accountable for delivering the academic 
information to students that they need to fulfill postsecondary 
school objectives.
    Keeping students in school: School systems are being given 
new expectations to ensure that students meet certain 
prescribed academic standards. It is more important than ever 
to be sure that students are, in fact, in school and able to 
benefit from academic instruction. Schools certainly need to be 
able to discipline students in a reasonable manner. However, it 
has been our experience that schools too often use suspension, 
both in school and out of school, to discipline students. For 
my child, suspension was used so often that it actually began 
to reinforce the very behavior that the teachers were trying to 
extinguish.
    What our family has learned over the past 20 years is that 
the only way to ensure maintaining a child's dignity and 
availability for learning is to implement positive approaches. 
For students to be found eligible for special education 
services, it must be demonstrated that their needs go beyond 
the needs of typically developing children. So children and 
youth with disabilities very often are struggling with nervous 
systems that render them impulsive, anxious, unable to 
interpret subtle and not to subtle social cues, and unable to 
process language efficiently and accurately.
    A great deal has been studied and written about positive 
behavior support strategies. The IDEA reauthorization of 1997 
wisely included language that asserted protections for children 
with significant behavioral disruptions to benefit from 
functional behavioral assessments. However, there needs to be 
accountability that these tools are used in a timely manner and 
that they are used to support a student to benefit from 
instruction that has been individually designed to meet their 
learning needs.
    Transition planning: I have a lot of information at my 
disposal about the transition to adult life because of my 
professional work and because I am a naturally inquisitive 
person. We were able to access vocational assessment and job 
coaches for Paul because I knew to ask and push. When Paul made 
his first visit to the Department of Rehabilitation Services, 
we were told that students from his school rarely were ever 
referred, although at the time he was in a school that solely 
served students with serious emotional problems.
    Parents and students need to be exposed to good information 
about transition planning, and States need to be given 
incentives to provide at least a modicum of services to young 
adults who have been labeled with a disability all of their 
lives but now are placed on waiting lists for services that do 
not exist. I view the fact that Paul had to withdraw from high 
school and pursue a GED as the biggest failure in his 
transition plan. Paul had to forego the opportunity of 
classroom instruction and the opportunity to fulfill his 
personal goal of graduating in the class of 2000. My family is 
well resourced emotionally and educationally. We have worked 
diligently during the time that Paul was a student to provide 
him additional resources to enrich his experiences. I feel that 
we have fulfilled our responsibilities. Where is the 
accountability that services agreed upon in students' IEPs will 
be carried out in a good-faith effort?
    In summary, I don't know that people's attitudes can be 
legislated. But make no mistake: attitudes are influenced by 
the strength of legislation and by the protections that the 
legislation provides. It has only been 25 years that children 
with disabilities have been afforded the civil rights 
protection of a free and appropriate public education. While 
that is a brief period in our history, that equals more than 
two full generations of students passing through our public 
schools. Please ensure that the legislation is tough and clear 
and that appropriate resources are allocated so that truly no 
child will be left behind.
    Thank you.
    [The prepared statement of Ms. Brown follows:]

                 Prepared Statement of Marisa C. Brown
    In 1990, when my son Paul was 9 years old, I read a report entitled 
``At the Schoolhouse Door: An Examination of Programs and Policies for 
Children with Behavioral and Emotional Problems'' by Jane Knitzer. What 
I read about the academic achievement of students with serious 
behavioral and emotional problems was chilling:
    A study of 249 BED students, aged 9-17 found that no more than 30% 
were functioning at or above grade level in any academic area, with 
deficits more severe the older the students (Kauffman et al., 1987).
    Another study of over 700 students, also between 9-17 found 
remarkable parallel data. Seventy-three percent of the sample were 
reading below grade level, again, with deficits more extreme among the 
older youth (Friedman et al., 1988).
    A study focused on high school students with identified behavioral 
and emotional problems found that 45 percent had failed at least one 
course; 18 percent had failed six or more courses (compared with 8 
percent of learning disabled youth). Just over one-third were able to 
pass the entire minimum competency tests, compared with close to half 
of the learning disabled students. Twenty-three percent failed it 
completely.
    This report went on to state that in 1989, 55 percent of the sample 
of students identified as having a behavior or emotional disability 
dropped out of school all together as compared to 36 percent for all 
other disabilities. Additional data reported on what happened to 
students once they exited school was equally disturbing. In 1989, only 
63 percent of these students were engaged in productive activities 
including postsecondary schooling, working for pay, volunteering or 
receiving job skills training. Interestingly enough, in light of 
current expectations of the Personal Responsibility Work Opportunity 
and Reconciliation Act of 1996, the majority of these activities 
measuring post-school success would not count!
    I vowed that my son would not fall victim to these statistics. Paul 
was already aware that his class would graduate from high school in the 
year 2000, and we made that our goal. Unfortunately, when Paul turned 
18, he withdrew from school. At that point, he had our full support to 
do so because we had become so frustrated in our inability to ensure 
the school system's accountability for the services for which my son 
was found eligible.
    Paul's experience as a student who received services under the 
eligibility of serious emotional disability has some unique aspects. 
However, there are several points I will make as it relates to 
accountability based on our experiences. First, the importance of 
academic preparation, second, the importance of keeping kids in school, 
and finally, the need to strengthen transition planning and services.
    Academic preparation: Paul's IQ scores have always indicated that 
he has the ability to complete grade level work. He has learned to read 
fairly efficiently, can read for pleasure, and was able to pass a 
driver's education course and the State-administered written test. He 
can make change, understand the basic principles of personal banking, 
and complete simple Algebra. In high school, Paul passed Algebra I, but 
left school while taking Geometry. During the academic year that he was 
studying Geometry, he was moved from a general education classroom 
where he received special education services to a self-contained class 
with two other students. The rationale for this move was that Paul 
needed more support because he was falling behind in the general 
education classroom. I was stunned to find out from Paul one week 
following this move that his teacher was ``waiting for the other two 
students to catch up to where Paul was.'' When I spoke to the teacher, 
he confirmed this information. I asked if the other two students were 
on schedule to take the State Department of Education assessment, 
because I did not think that Paul could afford to review information if 
he needed to progress in his learning. Certainly with three students 
and a certified teacher, Paul should have been able to receive whatever 
specially designed instruction he needed in the general education 
curriculum. Where was the accountability here?
    Paul was placed in four different high schools in the 4 years that 
he attended secondary level schools. Two of those schools were regular 
high schools, where Paul received more than 50 percent of his 
instruction in segregated classrooms. The other two schools were very 
restrictive placements in which only students that had been found 
eligible as students with serious emotional disabilities were admitted. 
What should students and parents expect in terms of academic rigor when 
students are placed in such settings? One would think that the ability 
to provide specialized instruction should be possible given the special 
nature of the setting, the smaller class size and a setting fairly rich 
in resources to provide related services. Our experience was that the 
academic program was secondary to efforts to alter the student's 
disability.
    Schools must be accountable for delivering the academic information 
to students that they need to fulfill post-secondary school objectives.
    Keeping students in school: School systems are being given new 
expectations to ensure that students meet certain prescribed academic 
standards. It is more important than ever to be sure that students are, 
in fact, in school and able to benefit from academic instruction. 
Schools certainly need to be able to discipline students in a 
reasonable manner. Rules are essential to an orderly and productive 
society, of which I want my child to be a part. However, it has been 
our experience that schools too often use suspension, both in school 
and out of school, to discipline students. Again, I want to emphasize, 
that while this is necessary in some cases, it is too frequently used 
in the absence of more effective strategies, and to simply get rid of 
the problem, rather than solving its root cause. For my child, 
suspension was used so often, that it actually began to reinforce the 
very behavior that the teachers were trying to extinguish. Suspension 
became a way for Paul to escape a situation that was very difficult for 
him, and he quickly learned how to ensure swift suspensions, and ones 
that would last more than one day!
    Efforts that deal effectively with behaviors that get in the way of 
learning need to be rooted in practices that are known to be 
successful. My husband and I have had to learn strategies that not only 
teach Paul, but that can be implemented within some broad definition of 
``typical'' family life. We have not had the luxury of calling someone 
to come and take Paul away from the home environment over the weekend 
as I was so frequently called to take Paul home from school, or to keep 
him home in the first place!
    What we have learned over the past 20 years is that the only way to 
ensure maintaining a child's dignity and availability for learning is 
to implement positive approaches. Kids will make mistakes, we all do. 
In fact, just as their adult counterparts do, kids even deliberately do 
certain things to annoy people and gain attention. But more 
importantly, we also know that for students to be found eligible for 
special education services, they need to demonstrate that their needs 
go beyond the needs of typically developing children. So, children and 
youth with disabilities very often are struggling with nervous systems 
that render them impulsive, anxious, unable to interpret subtle and 
not-so-subtle social cues, and unable to process language efficiently 
and accurately. A great deal has been studied and written about 
positive behavior support strategies. The IDEA reauthorization of 1997 
wisely included language that asserted protections for children with 
significant behavioral disruptions to benefit from functional 
behavioral assessments. However, there needs to be accountability that 
these tools are used in a timely manner, and that they are used to 
support a student to benefit from instruction that has been 
individually designed to meet their learning needs.
    Transition planning and services: Paul is currently making a 
successful transition to adult life. He has a driver's license, makes 
monthly payments on a car, is employed and attends classes at Northern 
Virginia Community College. He is aware of his disability and how it 
impacts his life, and can explain it to people very accurately. He has 
an ever-widening circle of friends and many people in our community 
know him. This transition has also made us aware of the adjustments in 
expectations that we have had to make. Paul had initially intended to 
major in the veterinary technician program at the community college. 
His vocational assessment that was completed as part of the transition 
plan on his IEP indicated that this was a realistic expectation. He had 
passed his math and science classes in high school and the GED. 
However, once he was attending classes at the community college, we 
became aware that Paul lacked some fundamental math and science skills 
to be successful. Even with individual tutoring that we provided for 
Paul, he needed to re-think his career plans.
    Paul is currently earning minimum wage at a movie theater. He loves 
to work, enjoys his co-workers, and takes advantages of all of the 
perquisites such as free movie passes. But Paul is still under-employed 
for his ability, and will not be able to live independently earning 
only the minimum wage. Although Paul has held various jobs since he was 
16 years old, it is still very difficult to discern if, when and how he 
should disclose the nature of his disability to potential employers. He 
is currently seeking services through the Virginia Department of 
Rehabilitation Services to assist him with additional vocational 
assessment and job supports.
    I have a lot of information at my disposal about the transition to 
adult life because of my professional work and because I am a naturally 
inquisitive person. We were able to access vocational assessment and 
job coaches during Paul's high school years because I knew to ask and 
push. When Paul made his first visit to the Department of 
Rehabilitation Services office as a high school student, he was 
attending a school that only served students with disabilities. One 
would think that these students would be in particular need of good 
transition planning. The vocational counselor remarked to me that they 
hardly ever got the opportunity to counsel students from that school, 
because no one thought to refer them!
    Parents and students need to be exposed to good information about 
transition planning. States need to be given incentives to provide at 
least a modicum of services to young adults who have been labeled with 
a disability all of their lives, but now are placed on waiting lists 
for services that do not exist.
    I view the fact that Paul had to withdraw from high school and 
pursue a GED as the biggest failure in his transition plan. Paul had to 
forgo the opportunity of classroom instruction and the opportunity to 
fulfill his personal goal of graduating in the class of 2000. My family 
is well resourced emotionally and educationally, and my husband and I 
are privileged to be well compensated for the work that we do. If our 
son had to drop out of school, is it any wonder that we are leaving so 
many children behind? My husband and I have worked diligently over the 
period of time that Paul attended school to be sure that he came to 
school ready to learn. We provided him with a stable family and 
additional resources such as tutoring, music lessons, and other 
organized activities to enrich his experiences. I feel that we have 
fulfilled our responsibilities. Where is the accountability that 
services agreed upon in students' IEPs will be carried out in a good 
faith effort?
    I don't know that people's attitudes can be legislated. But make no 
mistake; attitudes are influenced by the strength of legislation, and 
by the protections that the legislation provides. It has only been 25 
years that children with disabilities have been afforded the civil 
rights protection of a free and appropriate education. While that is a 
brief period in history, that equals more than two full generations of 
students passing through our public schools. Please ensure that the 
legislation is tough and clear, and that appropriate resources are 
allocated so that truly, no child will be left behind.
    Recommendations:
    1. Require adequate training in positive behavioral supports at the 
pre-service level for all education majors.
    2. Just as clear guidelines are followed for the eligibility of 
students to receive special education services, clear guidelines must 
be developed and adhered to that ensure that students are able to gain 
the academic, vocational and independent living skills they need to 
progress through secondary school.
    3. Language needs to be inserted to ensure that functional 
behavioral assessments and positive behavioral support plans are 
addressed for all students as identified in their present level of 
performance, not only required once students have exhibited a behavior 
that results in suspension or expulsion.
    4. Adolescents and their families must be actively engaged in 
transition planning.
    5. States need to be given incentives to provide adequate services 
and supports that can make the transition to adult life a viable 
reality.
    6. Legislative and regulatory language needs to be stronger in 
support of meeting the needs of students with disabilities.

    The Chairman. Thank you very much.
    Mr. Gordon.

STATEMENT OF DAVID W. GORDON, SUPERINTENDENT, ELK GROVE UNIFIED 
                 SCHOOL DISTRICT, ELK GROVE, CA

    Mr. Gordon. Mr. Chairman and members, thank you for 
inviting me to appear today to address an issue that is 
critical to my school district and our Nation--accountability 
in special education.
    My district serves 50,000 students in the southern third of 
Sacramento County, California. Our student population is 
wonderfully diverse--reflective of all of California and of the 
emerging America. We have 37 percent white students and 63 
percent minority students. Our students speak more than 80 
languages and dialects.
    We have worked hard over the past 10 years to improve our 
special education program and be sure we are focusing our 
dollars on students who need services the most. For example, 10 
years ago, 16 percent of our student population was enrolled in 
special education. Many of these children were not really 
learning disabled. They simply had not been taught to read. So 
we instituted an aggressive early intervention program, begun 
not in grades 3, 4, and 5 where services previously began, but 
in grades kindergarten, 1, and 2 where we could catch learning 
problems early.
    As a result, our special education population has dropped 
from the 16 percent of 10 years ago to just under 9 percent 
today--not because we ``kicked children out'' of the program, 
but because we prevented the need for them to be referred in 
the first place. And the students who were not referred and 
remained in the regular program are today performing very well 
compared to their peers.
    This is but one example--when we talk about 
accountability--of an indicator the current compliance 
monitoring system----
    The Chairman. Excuse me. Which children are responding very 
well in comparison to peers? The 9 percent now or the others 
that were moved?
    Mr. Gordon. The others that were not needed to be put in 
the program in the first place.
    The Chairman. I see. Okay.
    Mr. Gordon. This is but one example--when we talk about 
accountability--of an indicator the current compliance 
monitoring system doesn't look for or even acknowledge. The sad 
fact is that our current monitoring system has a voracious 
appetite for procedural minutiae and little or no interest in 
the real bottom line--whether or not students are achieving or 
accomplishing more as a result of the programs we offer.
    Consider the results of the study conducted by the Abell 
Foundation in Baltimore City. It found that the district was 
doing quite well in complying with procedural requirements. The 
district even had a judicial consent decree that added even 
more procedural requirements. But the performance of students 
in the district was dismal and not improving. And, worse, the 
focus of staff efforts was not on sharpening instruction and 
assessment, but on generating further compliance reviews and 
audits. To quote the study's summary: ``. . . the time and 
money currently spent on unnecessary paperwork and bureaucracy 
are desperately needed to improve academic outcomes. The 
excessive focus on compliance diverts attention from 
instruction, impedes the essential integration of Special 
Education and General Education, saps morale and makes it 
harder to recruit and retain Special Education teachers.''
    So what is the answer? First, let's dramatically scale back 
useless and redundant compliance reviews and paperwork to allow 
more time to focus on instruction.
    Second, let's not be afraid to set high standards for our 
special education students. The No Child Left Behind Act 
started the process by requiring reporting of student 
performance data on children with disabilities.
    Why shouldn't we expect more of all our children--even 
those with severe disabilities--and routinely measure their 
performance--just as we do for general education students?
    Third, let's hold me and my colleagues and States and 
districts throughout the Nation accountable for results by 
instituting systematic evaluation and reporting systems to let 
parents and the public know what outcomes we are achieving for 
students in special education.
    Thank you.
    [The prepared statement of Mr. Gordon follows:]

                 Prepared Statement of David W. Gordon
    Mr. Chairman and Members of the Committee, thank you for inviting 
me to appear today to address an issue that is critical to my school 
district and our Nation--accountability in special education.
    My district serves 50,000 students in the southern third of 
Sacramento County, California. Our student population is wonderfully 
diverse--reflective of all of California and of the emerging America--
37 percent white and 63 percent minority. The students speak more than 
80 languages and dialects.
    We have worked hard over the past 10 years to improve our special 
education program and be sure we are focusing our dollars on students 
who need services the most. For example, 10 years ago, 16 percent of 
our total student population was enrolled in special education. Many of 
these children were not really learning-disabled. They simply had not 
been taught to read. So we instituted an aggressive early intervention 
program, begun not in grades 3, 4, and 5 where services previously 
began, but in grades K, 1, and 2 where we could catch learning problems 
early.
    As a result, our special education population has dropped from the 
16 percent of 10 years ago to just under 9 percent--not because we 
``kicked children out'' of the program, but because we prevented the 
need for them to be referred in the first place. And the students who 
were not referred and remained in the regular program are performing 
very well compared to their peers.
    This is but one example--when we talk about accountability--of an 
indicator the current compliance monitoring system doesn't look for or 
even acknowledge. The sad fact is that our current monitoring system 
has a voracious appetite for procedural minutiae and little or no 
interest in the real bottom line--whether or not students are achieving 
or accomplishing more as a result of the programs we offer.
    Consider the results of the study conducted by the Abell Foundation 
in Baltimore City. It found that the district was doing quite well in 
complying with procedural requirements. The district even had a 
judicial consent decree that added even more procedural requirements. 
But the performance of students in the district was dismal, and not 
improving. And worse, the focus of staff efforts was not on sharpening 
instruction and assessment, but on generating further compliance 
reviews and audits. To quote the study's summary: ``. . .  the time and 
money currently spent on unnecessary paperwork and bureaucracy are 
desperately needed to improve academic outcomes. The excessive focus on 
compliance diverts attention from instruction, impedes the essential 
integration of Special Education and General Education, saps morale and 
makes it harder to recruit and retain Special Education teachers.''
    So, what's the answer? First, let's dramatically scale back useless 
and redundant compliance reviews and paperwork to allow time to focus 
on instruction. Second, let's not be afraid to set high standards for 
our special education students. The ``No Child Left Behind'' Act 
started the process by requiring reporting of student performance data 
on children with disabilities.
    Why shouldn't we expect more of all our children--even those with 
severe disabilities--and routinely measure their performance--as we 
already do for general education students?
    Third, let's hold me and my colleagues in States and districts 
throughout the Nation accountable for results by instituting systematic 
evaluation and reporting systems to let parents and the public know 
what outcomes we are achieving for students in special education.

    The Chairman. Very good. Senator Dodd, do you want to 
introduce Mr. Shaw?
    Senator Dodd. Dr. Shaw, welcome. We are very pleased to 
have you with us. You have a very distinguished record and 
history at the University of Connecticut, and I am particularly 
interested in hearing your comments about teacher development 
and your long-term work to develop curricula as well as field 
experiences to enhance teachers' abilities. The University of 
Connecticut is justly proud of the work that you have done, as 
we all are. So it is an honor to have you here this morning to 
talk about these issues.

   STATEMENT OF STAN SHAW, ED.D., PROFESSOR AND COORDINATOR, 
 SPECIAL EDUCATION PROGRAM, UNIVERSITY OF CONNECTICUT, STORRS, 
                               CT

    Mr. Shaw. Thank you, Senator Dodd, Chairman Kennedy, 
members, for this opportunity to talk with you about 
reauthorizing IDEA. I would like to note that I am a member of 
the Higher Education Consortium for Special Education, which is 
an organization of doctoral programs in special education from 
around the country. Later I would like to submit these two 
policy papers for your information.
    I have been privileged to serve students with disabilities 
for more than 35 years. I can still vividly recall when 
students were not guaranteed access to education. If they were 
permitted to be in school, it was typically in segregated 
settings where they were diagnosed and placed without parental 
consent. My message is straightforward. Congress has made 
monumental contributions to individuals with disabilities by 
promulgating IDEA. At this point, IDEA needs very little 
revision in its mandates, but significant upgrading of 
personnel who are critical to its effective implementation. 
IDEA has succeeded in assuring access for students with 
disabilities. We now need skilled personnel to provide 
effective instruction to assure positive outcomes.
    It is no exaggeration to state that there is a severe, 
chronic shortage of qualified personnel to serve students with 
disabilities. Ninety-eight percent of the school districts in 
the Nation report special education teacher shortages. Ten 
percent of all special educators lack appropriate 
certification, resulting in approximately 618,000 students not 
served by qualified personnel.
    In addition, our capacity to prepare teachers has been 
undermined by a shortage of special education teacher 
educators. The United States will need, as Chairman Kennedy 
said, over 200,000 new special educators by 2005. Thirty 
percent of special education faculty searches, however, do not 
get filled each year, often resulting in lost positions. If 
every college and university faculty position in special 
education were filled, about 3,000 more special education 
teachers could be prepared each year, serving 48,000 more 
students.
    Afterward, I would like to submit a Department of 
Education-funded report regarding faculty shortages. Research 
clearly links these data on unqualified and unprepared teachers 
with poor student outcomes. On the other hand, special 
educators who rated their pre-service training very good 
consider themselves more successful than others in providing 
services and found their workload more manageable.
    More than a decade ago, the University of Connecticut 
changed to a 5-year teacher preparation program requiring 
bachelor's and master's degrees and new expectations, including 
a subject area major, high admission standards, and extensive 
field experiences. The outcomes are dramatic. We have 
maintained a 98 percent employment record compared to a 
national average of about 60 percent. More than 50 percent 
choose to take positions in challenging inner-city schools, and 
90 percent are still in their classrooms 5 years after 
graduating compared to national figures of about 60 percent.
    We have made a commitment to collaborate with local schools 
that have agreed to work with our students and faculty. The 
expectation is that these professional development schools will 
result in simultaneous renewal, an equal partnership in which 
public school teachers and teacher education students and 
college faculty are transformed and enhanced. We have data 
indicating that this collaborative relationship is a unique and 
mutually productive vehicle for staff development and effective 
preparation of teachers.
    An effective teacher education program that prepares 
personnel who can fully implement IDEA should include the 
following: integrated preparation of general and special 
education personnel; ongoing field experiences combined with 
reflective seminars; intensive internships which enhance 
professionalism and develop leadership skills; collaborative 
relationships between institutions of higher education and 
local schools, fostering simultaneous renewal; and a focus on 
reflection, self-determination, and acceptance of diversity.
    Such a program is costly in terms of personnel resources. 
Few colleges are able to implement this type of program without 
Federal support. In fact, our renewed program was created with 
the support of Part D training grants. Federal support for 
personnel preparation is critical.
    My recommendations: focus reauthorization of IDEA on 
enhancing personnel preparation so that we have professionals 
who are trained to effectively implement IDEA and foster 
productive outcomes for students with disabilities; provide 
resources for States and institutions of higher education to 
raise standards and create incentives for attracting 
individuals to personnel preparation programs; and, finally, 
index Part D funding to Part B so that it will be 10 percent of 
Part B. This funding would be provided to institutions of 
higher education to address faculty shortages and to foster 
development and implementation of effective teacher education 
programs.
    Thank you.
    The Chairman. We will come back to those questions in the 
questions.
    [The prepared statement of Mr. Shaw follows:]

                   Prepared Statement of Stan F. Shaw
    Mr. Chairman and Members of the Committee: I want to thank Chairman 
Kennedy, ranking member Gregg and Senator Dodd from my home State of 
Connecticut for this opportunity to talk with you about reauthorizing 
the Individuals with Disabilities Education Act (IDEA). I would like to 
note that I am a member of the Higher Education Consortium for Special 
Education (HECSE) that is an organization of doctoral programs in 
special education from around the country. I would like to submit two 
HECSE policy papers for your information.
    I have been privileged to serve students with disabilities for more 
than 35 years. That perspective allows me to still vividly recall the 
status of young people with disabilities before IDEA, previous to The 
Education of All Handicapped Children Act, even prior the discussion of 
Senate Bill One in the early 1970s. During those times, individuals 
with disabilities were not guaranteed access to an education. If they 
were permitted to be in school it was typically in segregated settings 
where they often received little more than custodial care after they 
were diagnosed, labeled and placed without parental consent or even 
parental knowledge. My message is straightforward: Congress has made 
monumental contributions to individuals with disabilities by 
promulgating and amending IDEA in the last quarter century. That 
progress is evident in the national conference I opened yesterday 
regarding college services for students with disabilities that the 
University of Connecticut is sponsoring in Burlington, VT. There are 
participants from over 250 colleges that serve the 9.2 percent of 
college students who are individuals with disabilities. That figure is 
up from 2.6 percent when IDEA began in 1978. I believe, at this point, 
IDEA needs very little revision in its mandates, but significant 
upgrading of the preparation of personnel who are critical to its 
effective implementation. It is evident that IDEA has succeeded in 
assuring access for students with disabilities. We now need skilled 
personnel to provide effective instruction to assure positive outcomes.
    It is no exaggeration to state that there is a severe and chronic 
shortage of qualified personnel to serve students with disabilities in 
the schools: 98 percent of the Nation's school districts report special 
education teacher shortages (ERIC, 2001; Fideler, Foster, & Schwartz, 
2000) and shortages are most sorely felt in poor rural and urban 
schools; a 1998 survey completed by the American Federation of Teachers 
(AFT) shows that special education is the Nation's highest shortage 
area in the 200 largest cities; the American Association for Employment 
in Education (AAEE) lists specialty areas in special education among 
six of the eight teaching fields with the greatest shortages (AAEE, 
1999); and in data collected for the 23rd Annual Report to Congress 
(USDOE, 2001), 39,140 individuals filling special education positions 
(approximately 10 percent of all teachers) during the 1998-1999 school 
year lacked appropriate special education certification. There is a 
ratio of one special education teacher to 16 students. This indicates a 
shortage of 39,140 teachers resulting in approximately 618,412 students 
not served by qualified personnel. Projections for the future show the 
situation worsening.
    In addition, our capacity to prepare teachers has been undermined 
by a shortage of college and university special education teacher 
educators: the Council for Exceptional Children (CEC) predicts that the 
U.S. will need over 200,000 new special educators by 2005 (Kozleski, 
Mainzer, Deshler, Coleman, & Rodriguez-Walling, 2000); 30 percent of 
special education faculty searches do not get filled each year, often 
resulting in lost positions; and if every college and university 
faculty position in special education were filled, about 3,000 more 
special education teachers could be trained annually to serve about 
48,000 K-12 students a year (afterward, I would like to submit a 
Department of Education funded report on faculty shortages).
    Smith, Tyler, Pion, Sindelar and Rosenberg (2001) note that 
research clearly links this data on unqualified and unprepared teachers 
with poor student outcomes. On the other hand, special educators that 
rated their pre-service preparation as very good considered themselves 
more successful than others in providing services and found their 
workload more manageable. I'd like to take the next few minutes to 
discuss approaches to deal with these challenges based upon our success 
at the University of Connecticut.
    More than a decade ago, faculty of the University of Connecticut's 
Neag School of Education realized that our preparation program for both 
general and special education teachers was no longer adequate to meet 
the needs of the increasingly diverse and challenging students in the 
schools. We embarked on an intensive reform effort to develop a program 
that would be driven by current research on effective teacher 
education. We have continually collected data on program effectiveness 
and used these findings to further enhance student outcomes. The 
program is based on key components including a 5-year program of study, 
integration of general and special education students and faculty, 
fieldwork combined with a clinical seminar every semester, a full year 
intensive post student teaching internship, collaboration with 
Professional Development Schools, and an urban focus. Let me discuss 
the following themes as they relate to exemplary teacher preparation in 
special education.
 a quality teacher preparation program with high standards will foster 
                       recruitment and retention
    We were initially concerned that few students would apply to the 
University of Connecticut when we moved from a traditional 4-year 
teacher preparation program to a 5-year program requiring completion of 
both BA and MA degrees and the following new expectations: a subject 
area major in English, history, science or math; minimum criteria 
including a B- grade point average, SAT scores over 1,100 or passing a 
standard assessment of reading, writing and math skills to apply for 
admission to the teacher preparation program; participation in school-
based field experiences every semester including placement in inner 
city schools; a year long 20-hour-per-week internship in schools as 
part of the MA program; and completion of a research project as part of 
the internship.
    I am pleased to report that our concerns were unfounded. Indeed, 
both the quantity and quality of applicants spiraled upward. We now 
have two qualified applicants for every available seat in our teacher 
preparation program. Students we admitted to the special education 
program this year had a mean grade point average of 3.41 (A-/B+) in 
their required liberal arts courses, average SAT scores of 1,180 and 
extensive volunteer experience with individuals with disabilities. 
These students are as good or better than any other cohort of 
undergraduate students in any field of study at the University. Our 
biggest problem is that we have had to reject numbers of qualified 
students because of limited resources. The caliber of our students and 
productivity of our program is documented by the fact that virtually 
100 percent complete the program and we have maintained a 98 percent 
employment record compared to a national average of about 60 percent. 
What is even more encouraging to us is that more than 50 percent choose 
to take positions in challenging inner city schools after their 
successful experience in those schools while at UConn. The benefits of 
our quality program are most evident from the data on retention 
indicating that 90 percent of our students are still teaching after 5 
years, compared to national figures of about 60 percent. This 
commitment and professionalism is best described by one of our 
graduating seniors who said: ``We're learning about how to really make 
a difference in the world, and that's what I think I came here for when 
I wanted to be a teacher . . . this is what I'm going to do with my 
life. I'm so proud of myself. I can't believe that I'm going to make 
this [kind of] difference.''
   collaboration between institutions of higher education and local 
               schools provides for simultaneous renewal
    We've made a commitment to collaborate with selected Professional 
Development Schools (PDS), local schools that have agreed to work in 
partnership with our students and faculty. This results in a critical 
mass of juniors, seniors and graduate students working in schools as 
observers, tutors, student teachers and ``change agents'' (e.g., 
internships that involve developing an after school program, revising 
curricula, implementing new reading or math programs, supporting 
classroom teachers work with students with disabilities). The 
expectation is that this relationship results in what John Goodlad 
refers to as ``Simultaneous Renewal'', an equal partnership in which 
public school teachers and teacher education students and college 
faculty are transformed and enhanced. As indicated by the following 
comments from teachers in one of the poorest performing inner city 
schools in the country, UConn has demonstrated that simultaneous 
renewal has occurred.
    I look at things that I see a student teacher doing and I wonder 
whether I'm doing the same thing and it kind of puts checks and 
balances on me, too. I say, I wonder if I did that? I have to watch 
myself. If I catch them doing something wrong or good, I double check 
on myself to see if I'm doing the same thing.
    We've been focusing on what we've been getting out of the 
University. While we were talking I thought the student teachers get a 
lot from here. They all like it. I think a lot of them have never been 
in a city school and they're kind of surprised how much real education 
is going on and they're pleasantly surprised. Many of them choose to 
come back here for their fifth year and it ends up being a tremendous 
experience for them and makes us realize that there are actually a lot 
of positive things that we do and usually we don't get that reputation. 
The rest of the world hears about the negative, but when they're here 
they realize how much good is happening.
    It is apparent to us that this collaborative relationship among 
teacher education faculty, teacher preparation students and school 
faculty is a unique and mutually productive vehicle for staff 
development and effective preparation of teachers.
effective personnel preparation is labor intensive calling for federal 
                           capacity building
    An effective teacher education program that prepares personnel who 
can fully implement the mandates of IDEA and provide productive 
outcomes for students with disabilities should include the following: 
integrated preparation of general education and special education 
personnel so they understand each other's needs and have worked 
together from the outset of their pre-service program; on-going field 
experiences (with an urban focus) combined with reflective seminars 
that provide an opportunity to integrate college classroom instruction 
with school realities; intensive internship which enhances 
professionalism and develops leadership skills; collaborative 
relationships between institutions of higher education and schools 
fostering simultaneous renewal; and a focus on reflection, inquiry, 
self-determination, and acceptance of diversity.
    Such a program is likely to require 5 years rather than the 
traditional 4 and is costly in terms of personnel resources. It is 
likely that few schools will be able to implement such a program 
without Ffederal support. In fact, our renewed teacher preparation 
program at UConn was initially ``field tested'' with the support of 
Part D training grants. Therefore, Federal support for personnel 
preparation is critical.
                            recommendations
    1. Focus reauthorization of IDEA on enhancing personnel preparation 
so that we have professionals who are trained to effectively implement 
the mandates of IDEA and foster productive outcomes for students with 
disabilities.
    2. Provide resources for States and institutions of higher 
education to raise standards and create incentives for attracting 
individuals to personnel preparation programs.
    3. Index Part D funding to Part B so that it will be 10 percent of 
Part B. This funding should be provided to institutions of higher 
education to address faculty shortages and to foster development and 
implementation of effective teacher education programs that feature on-
going field experiences with reflective seminars, integration of 
general and special education students, intensive internships and 
implementation of Professional Development Schools.

    The Chairman. Ms. Mayerson, we welcome you here. We want to 
thank you on behalf of the committee for all of your help and 
work, particularly in the courts of law, in trying to reflect 
some of the expression and clear intent of what this committee 
was attempting to do with so many of these pieces of 
legislation with regards to the disabled and also the debates 
on the floor. You have really captured the sense in their 
representations in the courts, and I know the whole community 
is very grateful to you, and we are as well. We appreciate your 
being here.

 STATEMENT OF ARLENE MAYERSON, DIRECTING ATTORNEY, DISABILITY 
       RIGHTS EDUCATION DEFENSE FUND, INC., BERKELEY, CA

    Ms. Mayerson. Thank you, Senator Kennedy, and thank you for 
your continuing role as a champion for children with 
disabilities and their families.
    It is a privilege to be here today to share some of my 
insights from 22 years of representation of children with 
disabilities and their families and adults with disabilities. I 
would like to thank all the members of this committee for 
giving me the opportunity to share this experience with you.
    The members of this panel have spoken about accountability 
as it relates to measuring outcomes, the preparation of 
teachers, and fiscal responsibility. All these things, of 
course, are critically important. To parents of disabled 
children, accountability represents a historic shift in the 
relationship between parents and schools and the crux of the 
IDEA.
    Before the IDEA, parents had no way to hold their schools 
accountable for when, where, or if their child would receive an 
education. The IDEA was historic because it recognized the 
critical role of parents in assuring that children with 
disabilities receive an appropriate education. This is not only 
because parents know their children most intimately, but also 
because the parents have no competing fiscal and administrative 
demands.
    Parent involvement serves to keep the focus where it 
belongs: on the child. Unfortunately, it is difficult for many 
parents who avail themselves and their children of IDEA 
protections because of the unequal position they too often find 
themselves in.
    There are many reasons for this. The schools not only have 
control over the resources, but also have unequal access to the 
language and information systems needed to make decisions. Many 
parents are intimidated by professionals and are often greatly 
outnumbered at IEP meetings. All of these inequalities are even 
more acute when disputes arise.
    It is very difficult for parents of children with 
disabilities and their advocates to hear continually about the 
burdens of school districts and how parents have school 
administrators in their grip. Nothing could be further from the 
experience of the thousands of parents of disabled children who 
struggle day-in and day-out to provide their children with the 
education they need and deserve.
    The parent participation provisions of the IDEA were 
designed to level the playing field. We know from our 
experience that the concepts in the law are right. We need to 
think about ways to make them work for all parents. We need to 
assist and empower parents. Any reauthorization of the IDEA 
should focus on how to help parents exercise their rights, and 
any proposals which in any way dilute parent participation, due 
process, or enforcement must be resoundingly rejected.
    To give some personal insight to this parent participation 
and the role of parents in assuring their children's rights, I 
would like to introduce the panel to Rachael Holland. We have a 
poster here for the audience and for all of you here on the 
panel. I would like to show you a picture of Rachael Holland.
    Here we have what looks like and what is a very happy, a 
jubilant high school graduate, posing before graduation 
ceremony in her beautiful robe, excited about graduating.
    Unfortunately, the road to this point for Rachael Holland 
has been fraught with barriers, anguish, stereotypes, and 
heartbreak.
    Rachael Holland is developmentally disabled. When she was 
in kindergarten, she was placed in a special day class, away 
from her peers. When her parents asked if Rachael could just 
participate in recess with her peers, they were told, ``No, she 
would be too disruptive. She would retard them.''
    Rachael Holland's parents had to take her right to be with 
her peers through every level of due process all the way to the 
U.S. Supreme Court.
    After winning at every single level, the school district 
appealed and appealed and appealed and appealed. Finally, she 
had her right to go to school with everyone else. Finally, she 
reached this day where she was going to graduate regular high 
school with her peers. But, sure enough, she was told that 
special ed. kids graduate in a separate ceremony. Her parents 
brought in the law. That was fixed. Then just yesterday--
tomorrow is graduation--her parents got a message on their 
machine saying ``We want you to make sure, you must, must 
assure us that Rachael will act appropriately.'' Again, her 
parents had to run down to the school the day before 
graduation.
    Parents need empowerment. I have three specific proposals 
in my written testimony for increasing parent participation, 
for effective monitoring that measures outcomes, and for the 
use of the Department of Justice as an enforcement like in all 
other civil rights laws. I would be very happy to entertain any 
questions of those specific proposals. This is a civil rights 
law, and we should never lose sight of the fact that we are 
assuring the rights of Rachael Hollands of our country to the 
civil rights that they deserve.
    Thank you.
    [The prepared statement of Ms. Mayerson follows:]

                 Prepared Statement of Arlene Mayerson
                             accountability
    The word conjures up auditors reviewing expenditures or tests 
measuring achievement. To parents of disabled children, 
``accountability'' represents a historic shift in the relationships 
between parents and schools and the crux of the IDEA. Without 
recounting the history of outright exclusion and segregation of 
children with disabilities prior to the enactment of the Education for 
Handicapped Children's Act (EHA) in 1975, suffice it to say that 
neither the disabled child or his/her parents had any rights to hold 
the district or the State accountable. ``Early legislation in many 
States permitted the exclusion of any child whenever school 
administrators decided that the child would not benefit from public 
education or that a child's presence would be disruptive to others. The 
egregiousness of some legislation was demonstrated in a North Carolina 
statute that made it a misdemeanor for a parent of a disabled child to 
insist that his/her child be educated in a regular public school.'' \1\
---------------------------------------------------------------------------
    \1\ Philip T.K. Daniel, Education for Students with Special Needs: 
The Judicially Defined Role of Parents in the Process, 29 J.L. & Educ. 
1, 6 (2000)(citations omitted).
---------------------------------------------------------------------------
    In the seminal case leading up to the EHA (IDEA), PARC v. 
Pennsylvania, 343 F. Supp. 279 (E.D. Pa 1972), parents found out that 
their child was deemed ``uneducable'' \2\ when the school bus failed to 
show up on the first day of school. Parent participation is a key value 
which needs to be reinforced and bolstered in any IDEA Reauthorization 
proposals. In addition to participation in their own child's education, 
parents rely on mechanisms set up to ensure that districts comply with 
the law. State and Federal monitoring and enforcement is essential to 
assuring accountability with IDEA mandates. These areas must also be 
enhanced so that chronic non-compliance is curtailed.
---------------------------------------------------------------------------
    \2\ PARC v. Pennsylvania, 343 F. Supp. 279, 292 (E.D. Pa 1972).
---------------------------------------------------------------------------
    Parent participation is critical to the development of an 
appropriate educational plan because the parent knows the child most 
intimately and because the parent has no competing fiscal or 
administrative demands. The parent therefore serves to keep the focus 
on the educational needs of the child. However, the ability to 
effectively utilize these procedures depends largely on the resources 
of the parent involved. As commentators often acknowledge, ``many 
parents lack the ability to be effective advocates for their children. 
At the Individual Education Plan (IEP) level, these parents may be 
unable to understand their children's placements, let alone articulate 
different ones. They may not be aware of the extent of their children's 
rights to a free appropriate education (FAPE) or the procedural 
mechanisms to seek redress in case of disagreement. Second, the 
environment of the IEP process is heavily reliant on technical 
terminology to discuss the child's educational status and progress.'' 
\3\
---------------------------------------------------------------------------
    \3\ Steven Marchese, Putting Square Pegs Into Round Holes: 
Mediation and the Rights of Children with Disabilities Under the IDEA, 
53 Rutgers L. Rev. 333, 343, (2001)(citations omitted).
---------------------------------------------------------------------------
    Currently, parents must face the often daunting prospect of an IEP 
meeting alone. I can't tell you how many parents have told me about the 
lost sleep and sick feelings due to the fear and anticipation of going 
to an IEP meeting. In a survey of parents of children with 
disabilities, parents recounted an almost universal experience of 
intimidation and anxiety.\4\ Parents described the situation in these 
ways:
---------------------------------------------------------------------------
    \4\ David M. Engel, Origin Myths: Narratives of Authority, 
Resistance, Disability and Law, 27 Law & Soc'y. Rev. 785, 79-806.
---------------------------------------------------------------------------
    ``You feel like you're going to the principal's office.'' \5\
---------------------------------------------------------------------------
    \5\ Id. at 801.
---------------------------------------------------------------------------
    ``It reminded me of a courtroom . . . you walk in and everybody 
else is already seated and you feel so conspicuous and like you're on 
trial or something. I found it really intimidating.'' \6\
---------------------------------------------------------------------------
    \6\ Id. at 802.
---------------------------------------------------------------------------
    ``I get nervous when I'm with them, because it's 12 against 1 . . . 
I've got to take a tranquilizer before I go. It's totally 
intimidating!'' \7\
---------------------------------------------------------------------------
    \7\ Id.
---------------------------------------------------------------------------
    ``You can cut the air with a knife when you open the door.'' \8\
---------------------------------------------------------------------------
    \8\ Id.
---------------------------------------------------------------------------
    As one commentator has noted:
    There is an asymmetry to the IEP conference that arises not only 
because the parents and professionals speak different languages and 
view the world through different lenses, but also because their status 
at the conference table is fundamentally different. In the CSE 
(Committee on Special Education) meetings, one party enters the 
discussion with control over resources while the other has only needs 
and rights. The party with control over resources--the CSE--has no 
needs or emotions to ``share'' or to trade, just as the party with 
needs and emotions--the parent--has no resources to offer in the 
negotiations. The negotiating process for the parent is, therefore, a 
matter of attempting to bargain for resources by citing needs--a 
frustrating and sometimes humiliating process. As we have observed, the 
bargaining process is further skewed by an unequal access to the 
language and the information system in which needs must be articulated 
in order to justify the expenditure of resources.\9\
---------------------------------------------------------------------------
    \9\ Id. at 819-20.
---------------------------------------------------------------------------
    To be fair and to realize the goal of the IDEA, of leveling the 
playing field between parents and school districts, parents should have 
assistance available to prepare for and attend IEP meetings. The 
current funding for Parent Training Information Centers is woefully 
inadequate to fulfill this role.
    If a parent and school district have a disagreement at the IEP 
meeting, the parents or school district can initiate a due process 
hearing. Again, the parents and school district are in unequal 
positions, and parents with the least resources are in the worst 
position to effectively utilize due process. While there is much talk 
about the costs and burdens of administrative due process hearings, the 
reality is that they are drastically underutilized by parents. The 
problem is not that school districts are burdened, but that parents are 
not using an essential tool given to them in 1975 to help ensure 
attainment of the substantive guarantees of the IDEA, FAPE in the least 
restrictive alternative (LRE) are realized.\10\ The enactment of the 
Handicapped Children's Protection Act in 1985, helped ensure parental 
participation in due process hearings by allowing reimbursement of 
attorney fees to prevailing parents. However, it is still difficult to 
find lawyers willing to take cases on these terms.\11\ Any proposal to 
dilute even further the parents' ability to utilize due process 
procedures should be resoundingly rejected.
---------------------------------------------------------------------------
    \10\ Despite the hyperbole about the burden of due process 
hearings, the actual utilization is shockingly low. Thirty-one States 
had less than fifteen hearings in 2000, twelve States less than fifty. 
Due Process Hearings: 2001 Update Project Forum at NASDSE.
    \11\ Jonathan A. Beyer, A Modest Proposal: Mediating IDEA Disputes 
Without Splitting the Baby, 28 J.L. & Educ. 37, 43 (1999).
---------------------------------------------------------------------------
    Even when districts do not use lawyers at due process hearings, 
their use of professional staff with hearing experience creates an 
imbalance which few parents would attempt to confront unassisted. A 
colleague of mine who is a partner in a big San Francisco firm told me 
that he asked his litigation partner to represent him in an education 
hearing for his disabled daughter. My colleague considered it 
impossible to maintain the composure necessary to be an effective 
advocate when his child was the subject of the dispute. No parent 
should have to forgo a critical due process protection in the law 
because he/she cannot afford representation.
    Some believe that the solution to this dilemma is the increased use 
of mediation, even mandatory mediation. While seemingly benign, these 
proposals threaten to entrench the power imbalance to the detriment of 
disabled children. As another commentator has stated, ``[w]ithout 
attention to the context of special education disputes, particularly 
for less able parents, the mediation cure has the potential to be worse 
than the due process problem it was supposed to fix.'' \12\ ``Power 
imbalances between families and districts, information inequities 
between the parties, lack of guaranteed parental access to paid 
advocacy, and the absence of uniform mediator training and 
qualifications are all significant concerns.'' \13\ ``The danger is 
that the rush to resolve conflict may yield results that are unfair to 
the very people the IDEA was designed to empower.'' \14\ ``Further, 
because there is a dependent relationship between the child with a 
disability and the school district, the tendency will be for the weaker 
party (in this case, the child's family) to compromise or accept 
something less than desired in the face of intransigence by the 
stronger party (the school district), unless the weaker party has some 
means of strengthening its bargaining power.'' \15\
---------------------------------------------------------------------------
    \12\ Marchese, supra note 3, at 338.
    \13\ Id. at 350.
    \14\ Id. at 350-51.
    \15\ Id. at 355.
---------------------------------------------------------------------------
    Given the power imbalances between the parties, there is high 
potential for a ``compromise'' that does not adhere to the statute's 
requirements for FAPE in LRE. Rather, in the guise of promoting a 
``non-adversarial'' proceeding, mediation could make it easier for 
districts to win concessions that would be harder to achieve through a 
formal hearing.\16\
---------------------------------------------------------------------------
    \16\ Andrea Shemberg, Mediation as an Alternative Method of Dispute 
Resolution for the Individuals with Disabilities Education Act: A Just 
Proposal?, 12 Ohio St. J. on Disp. Resol. 739, 279 (1997).
---------------------------------------------------------------------------
    It is for these reasons that proposals to mandate mediation are not 
benign. In fact, it is the least equipped parent who would decide to 
turn down voluntary mediation. A parent who turns down voluntary 
mediation may very well be fearful of the power imbalance.
    For mediation to fulfill the IDEA's goal of leveling the playing 
field, parents should have the right to assistance. The ``failure to 
require States to pay for outside assistance at mediation increases the 
likelihood that less advantaged parents will make agreements without a 
full understanding of the legal consequences.'' \17\ At a minimum, 
mediation must be voluntary and must assure that the unequal position 
of the parent does not compromise the child's right to FAPE in LRE.
---------------------------------------------------------------------------
    \17\ Marchese, supra note 3, at 360.
---------------------------------------------------------------------------
    While it is imperative to give parents the tools necessary to hold 
their school districts accountable, the IDEA never contemplated that 
they would do it alone. In fact, the more the Federal and State 
Departments of Education fail in their monitoring duties, the more the 
burden falls on parents and private litigation.
    I know the Committee has heard about the findings in the National 
Council on Disabilities (NCD) Report Back to School on Civil Rights. To 
quickly summarize:
    Every State and the District of Columbia out of compliance with 
IDEA requirements: 90 percent of States failed to ensure compliance in 
the category of general supervision; 88 percent of States failed to 
ensure compliance with the law's secondary transition services 
provisions; 80 percent of States failed to ensure compliance with the 
law's FAPE requirements; 78 percent of States failed to ensure 
compliance with the procedural safeguards provisions of the law; and 72 
percent of States failed to ensure compliance with the placement in the 
LRE.
    Even these dramatic figures don't tell the whole story. Both the 
Federal and State monitoring records demonstrate that sanctions are not 
employed even after repeated failures to correct violations. For 
example: The U.S. Department of Education, Office of Special Education 
Programs (OSEP) has repeatedly found California out of compliance with 
its general supervisory responsibilities under IDEA in failing to 
maintain an effective monitoring and enforcement system. In the 1992, 
1996, and 1998 OSEP reviews of California, CDE's deficient monitoring 
system is cited as a major area of noncompliance resulting in the lack 
of services to children with disabilities. OSEP has issued various 
corrective action plans ordering California to correct this deficiency.
    The failure of the OSEP to compel compliance by the California 
Department of Education (CDE) and the failure of the CDE to properly 
investigate and compel compliance by local school districts creates a 
``paper lion'' mentality--since there is no real consequence to failure 
to comply with mandated corrective action, the same violations are 
repeated over and over again. This is not only a waste of time, money 
and resources but, most importantly, has dire consequences for the 
children the law was designed to protect.
    In a lawsuit in which my organization is involved, the East Palo 
Alto school district (Ravenswood City Elementary School District) had 
been found out of compliance by the CDE numerous times. Children in the 
district were not adequately or timely identified or assessed, failed 
to receive adequate IEP's, IEP's were not implemented, and children 
were unnecessarily segregated from non-disabled students. In October 
1997, the Court found the CDE ``not up to the task of ensuring 
Ravenswood's compliance with Federal law.'' \18\ The court held that 
requiring the plaintiffs to exhaust administrative remedies ``would 
only punish Ravenswood's disabled students for the CDE's past 
failures.'' \19\
---------------------------------------------------------------------------
    \18\ Emma C. v. Eastin, No. C96-4179 TEH at 10 (N.D. Cal. Oct. 1, 
1997)(order).
    \19\ Id.
---------------------------------------------------------------------------
    As stated by the judge, ``the injuries inflicted on the students by 
the District's failure to provide adequate special education services 
are often irreparable.'' \20\ Moreover, Judge Henderson underscored 
``that many of the children served by Ravenswood are low-income, and 
come from racial minority groups with limited English proficiency who 
already face higher dropout rates and lower employment rates. For those 
students who face the additional challenge of a disability, the risk of 
injury from lack of special education services is even more grave.'' 
\21\
---------------------------------------------------------------------------
    \20\ Emma C. v. Eastin, No. C96-4179 TEH at 32 (N.D. Cal. Oct. 4, 
2001)(order re: contempt).
    \21\Id.
---------------------------------------------------------------------------
    For OSEP to be taken seriously in assuring accountability, it must 
revise it's monitoring procedures and sanctions and enforcement must be 
vigorously pursued if compliance is not reached within a reasonable 
time frame. As you are aware from previous witnesses, a group of 
advocates, parents, educators, special education directors and OSEP 
staff have been meeting to develop more efficient and effective 
monitoring procedures, known as focused monitoring. Focused monitoring 
envisions a broad group of people identifying significant priorities 
which would be monitored using a data-based and verifiable system, with 
provisions of supports and capacity-building and, when necessary, 
utilization of sanctions in accord with a protocol for making decisions 
about the level of OSEP intervention.
    Benchmarks for compliance are established and triggers for rewards 
or sanctions are established. For example, in the most recent draft the 
benchmark for compliance with the least restrictive alternative (LRE) 
requirements is 90 percent of students with disabilities are educated 
in general education classes for 80 percent or more of the school day. 
The following triggers would be established:
    Trigger for Category 1:
    90 percent of students or more are educated in general education 
for more than 80 percent of the school day.
    Trigger for Category 2:
    States that do not meet the triggers for categories 1, 3, or 4.
    Trigger for Category 3:
    Appearance on one of the following lists:
    (a) Rank in the top 30 percent of States when measuring the 
percentage of students spending more than 60 percent of the school day 
outside of the regular classroom.
    (b) Rank in the top 30 percent of States when measuring the 
percentage of students educated in public or private special education 
facilities.
    Trigger for Category 4:
    Appearance on any two of the following lists:
    (a) Rank in the bottom 20 percent of States when measuring the 
percentage of students spending less than 21 percent of the school day 
outside of the regular classroom.
    (b) Rank in the top 20 percent of States when measuring the 
percentage of students spending more than 60 percent of the school day 
outside of the regular classroom.
    (c) Rank in the top 20 percent of States when measuring the 
percentage of students educated in public or private separate school 
facilities.
Example
    Using these triggers, no States would be in Category 1.
    Using these triggers, thirty-six States would be in Category 2: 
Alabama, Alaska, Arizona, Arkansas, Colorado, Connecticut, Florida, 
Hawaii, Idaho, Indiana, Iowa, Kansas, Kentucky, Maine, Massachusetts, 
Minnesota, Mississippi, Missouri, Montana, Nebraska, Nevada, New 
Hampshire, New Mexico, North Carolina, North Dakota, Ohio, Oklahoma, 
Oregon, South Dakota, Tennessee, Texas, Vermont, Washington, West 
Virginia, Wisconsin, Wyoming.
    Using these triggers, seven States would be in Category 3: 
California, Michigan, New Jersey, Pennsylvania, Puerto Rico, Rhode 
Island, Utah.
    Using these triggers, nine States would be in Category 4: Delaware, 
District of Columbia, Georgia, Illinois, Louisiana, Maryland, New York, 
South Carolina, Virginia.
    Protocols would be established to determine how OSEP will intervene 
or what other action will be taken when a State has not completed 
required corrective actions and when performance goals are not met by 
the identified deadline.
    While these procedures should make it clearer, and therefore 
easier, for OSEP to impose sanctions, other avenues must also be 
available for parents who have complaints of persistent systemic 
violations. As in so many other areas of disability law, we can learn 
from the experience of other civil rights laws. It is essential to 
always remember that these are civil rights for children with 
disabilities, and this must never be lost in a bureaucratic maze.
    In this regard, we propose the adoption of a provision modeled on 
the 1964 Civil Rights Act, which allowed parents to complain directly 
to the Attorney General in desegregation cases. This remedy exists side 
by side with the Department of Education's Title VI jurisdiction over 
desegregation cases.
    Likewise, parents of disabled children should have the ability to 
file systemic complaints directly with the Attorney General, who is 
empowered to bring a lawsuit to remedy the violation. Pattern and 
practice violations, such a failure to provide appropriate and timely 
assessments and failure to educate children in the least restrictive 
environment, could be addressed by the Department of Justice. This 
would provide, like in the 1964 Civil Rights Act, an avenue in addition 
to fund terminations to seek compliance.
    Modeled on 42 U.S.C. Sec. 2000 C-6, the provision would read as 
follows:
Proposed IDEA Amendment
    Whenever the Attorney General receives a complaint in writing 
signed by a parent or group of parents to the effect that his or their 
minor children, as members of a class of persons similarly situated, 
are being deprived of rights guaranteed under the IDEA, the Attorney 
General is authorized, after giving notice of such complaint to the 
appropriate local education agency or State Department of Education and 
after certifying that he is satisfied that such agency or department 
has had a reasonable time to adjust the conditions alleged in such 
complaint, to institute for or in the name of the United States a civil 
action in any appropriate district court of the United States against 
such parties and for such relief as many be appropriate, and such court 
shall have and shall exercise jurisdiction of proceedings instituted 
pursuant to this section. The Attorney General may implead as 
defendants such additional parties as are or become necessary to the 
grant of effective relief hereunder.
                               conclusion
    It is difficult for parents of disabled children and their 
advocates to hear about the burdens to school districts and how parents 
have school personnel in their grip. Nothing could be further from the 
reality of the thousands of parents who struggle day in and day out to 
provide their children the education they need and deserve.
    The due process and monitoring and enforcement mechanisms in the 
law were designed to recognize the importance of full parent 
participation, to level the playing field and promote accountability. 
To fully realize these goals, parents need training, assistance and 
representation, and Federal and State agencies need to demonstrate a 
commitment to the children first, through vigorous enforcement.
    Thank you for allowing me to appear before you. I would be happy to 
answer any questions you may have.

    The Chairman. Thank you very much.
    Mr. Gloeckler, we are delighted to have you. We note that 
Senator Clinton is here as well, and we particularly appreciate 
your willingness to come down and bring a very special insight 
into this whole issue. We are glad to hear from you.

   STATEMENT OF LAWRENCE C. GLOECKLER, DEPUTY COMMISSIONER, 
   VOCATIONAL AND EDUCATIONAL SERVICES FOR INDIVIDUALS WITH 
  DISABILITIES (VESID), NEW YORK STATE EDUCATION DEPARTMENT, 
                           ALBANY, NY

    Mr. Gloeckler. Thank you for the opportunity, Senator 
Kennedy, Senator Clinton, and other members of the committee. I 
consider it an honor to be here, and I do want you to know that 
the Kennedy name has played a role in my career. I was the 
first class of future teachers to receive a Kennedy scholarship 
to be able to become a teacher of the mentally retarded. I am 
not going to say how long ago that was, but I appreciate that 
still today.
    The Chairman. Good. Thank you.
    Mr. Gloeckler. I also was the first State Director of 
Special Olympics in New York State when it was an unpaid 
position. But I still enjoyed it. [Laughter.]
    The Chairman. My sister Eunice----
    Mr. Gloeckler. Yes, I know. I drove her around Rochester.
    The Chairman. A lot of big spenders up here. [Laughter.]
    Mr. Gloeckler. You have asked me to focus my few minutes of 
remarks on issues related to transition, and that is what I 
will do. My written testimony outlines what we in New York 
think are the issues more broadly stated, and we provide you 
data in that testimony which I believe paints a very clear 
picture, at least in New York, of where we have made 
substantial progress in educating students with disabilities, 
but also where we have areas where we have to improve.
    I hope you will look carefully at those facts, but let me 
move on to transition, and I premise these remarks with two 
thoughts. First of all, we have almost always underestimated 
the ability of students who happen to have disabilities, and, 
therefore, our expectations have almost always been too low. 
The measure of special education is not how many services we 
provide. It is not whether a student completed school. But, 
instead, did the student leave school fully prepared to pursue 
postsecondary education, engage in meaningful employment, and 
participate as fully as possible in a community life where they 
live? If not, then we have failed.
    The transition requirements are a key to that, but they 
have been very difficult to implement systemically. We have 
pockets of excellence in our State, but we also have gaps. So 
why do we still have them?
    I believe the primary burden of transition has been placed 
squarely on the shoulders of a system that has been more often 
than not left to do it alone. Quite frankly, the education 
system is not able to accomplish the intended results by 
itself. Yet we have not constructed an effective strategy for 
ensuring that other systems participate in a meaningful way. 
The strategy of interagency agreements, which is our primary 
strategy in law, only works well when the agreements are backed 
by real capacity to implement.
    I have laid out a set of recommendations that come from 
research we have done in New York based on extensive experience 
on attempting to implement transition and follow-along studies 
that we have done with students who have left school, and they 
appear in the last three pages of the testimony. But I would 
just like to highlight a few now.
    First of all, I hope in this next reauthorization you will 
recognize the need to dedicate resources to transition across 
systems. We recommend that a pool of targeted money be 
allocated from multiple sources, thus creating multiple 
commitment and multiple accountability for ensuring that there 
are successful results in transition.
    The pool of money should be created from funds from IDEA, 
but also the Rehabilitation Act, the Higher Education Act, 
Ticket to Work, TANF, VATEA, and perhaps others. It should be 
free of the otherwise restrictive bureaucratic rules each 
source currently has, with two caveats: one, it be spent for 
students with disabilities; and, two, it be spent for services 
specified on the agreed-upon transition plan.
    There must be incentives to bring both community-based and 
State rehabilitation agency resources and independent living 
expertise into schools to participate in transition planning. 
IDEA currently forces a reliance on what often are the wrong 
people, whomever the school has available in the transition 
process.
    We also have substantial evidence that community-based work 
experience at the secondary and postsecondary level leads to 
greater employment success. We also know that students with 
severe disabilities are often limited from participation in 
after-school and summer employment experiences. Knowing that, 
let's target resources directly to establish these programs.
    I want to mention particularly Ticket to Work. I think that 
is a sleeping giant in the possibilities for transition. If we 
were able to design creative ways to use it to support the 
opportunities for employment preparation while students are 
still in school, I think it could become an important revenue 
incentive for schools to build capacity.
    Finally, there is abundant evidence that shows that when 
community-based services such as mental health and health 
services are readily available to schools, indicators of 
students' quality of education improve dramatically. IDEA's 
structure supports collaboration through agreements, but does 
little to address the funding and program conflicts that are 
currently the real barriers to effective collaboration.
    Last, to use a sports analogy for a Senator whose team won 
the Super Bowl, today transition is often like a long pass in 
football. The receiver is way down field, and the passer throws 
the ball as far as he can, hoping it will be caught. It should 
be like a relay race where, when the baton is passed, both 
runners are holding it until the receiver has securely put it 
in his grasp. I hope that we can deal with that in this next 
reauthorization.
    Thank you very much.
    [The prepared statement of Mr. Gloeckler follows:]
                   Statement of Lawrence C. Gloeckler
    In 1995, the New York State Board of Regents and State Education 
Department embarked on a reform agenda to improve educational 
achievement for all students. High standards were established, progress 
on the standards was to be measured and reported, and school districts 
were required to provide academic intervention services where adequate 
progress was not demonstrated to assist all students in achieving these 
standards.
    New York State's Office of Vocational and Educational Services for 
Individuals with Disabilities (VESID) vision is that students with 
disabilities will leave school prepared to live independently; enjoy 
self-determination; make choices; contribute to society; pursue 
meaningful careers; and enjoy integration in the economic, political, 
social, cultural and educational maintream of American society. To 
accomplish this, the State Education Department adopted the following 
goals for reform of the special education system:
    <bullet> Eliminate unnecessary referrals to special education.
    <bullet> Assure that students unnecessarily placed, or who no 
longer need special education services, are returned to a supportive 
general education environment.
    <bullet> Hold special education services to high standards of 
accountability to improve results for students with disabilities.
    <bullet> Assure that students with disabilities are educated in 
settings with their non-disabled peers to the maximum extent 
appropriate to their individual needs.
    <bullet> Provide mechanisms for school districts to develop or 
expand support and prevention services.
    <bullet> Assure that school personnel and families have the 
knowledge and skills that enable them to effectively assist students 
with disabilities in attaining high standards.
    One of the most important aspects of the 1997 reauthorization of 
IDEA is the focus on accountability and student performance. The 
primary concern of families and schools should be the achievement of 
successful outcomes by students. Thanks to IDEA 1997, parents of 
students with disabilities now have the right to be informed about 
their child's performance with the same frequency and across the same 
measures as their non-disabled peers. The addition of the alternate 
assessment has allowed parents of children with the most severe 
disabilities that same important information and has served as a 
breakthrough for creative thinking as to how children with the most 
severe disabilities can be educated based on standards that are 
important for all children.
    Schools must now examine and treat with equal seriousness the 
progress of all students. In New York State, we have moved to a 
performance-based approach, which was supported by the 1997 IDEA 
amendments. We now measure and report the performance of all of our 
students on all of our measures of accountability--from school report 
cards to measures of adequate early progress.
    The value of this approach to accountability and performance is not 
to improve test scores per se, but rather to ensure that students with 
disabilities have the same opportunities to be prepared to live as 
independent adults. The vast majority of students with disabilities 
need to learn the same information contained in the general education 
curriculum as any other student. We need to prepare students with 
disabilities for opportunities to participate fully in society and 
pursue meaningful careers, postsecondary education and as high a 
quality of life as possible.
    This reauthorization of IDEA should make every effort to increase 
the focus of the law on supporting student performance while reducing 
the reliance on procedure and process as the main focus of 
accountability. The reauthorization of IDEA should be based on what we 
know about the state of special education today and how we can use what 
we know to determine what improvements can be made in the law. The law 
should not be amended based on speculation, anecdote or emotion. 
Rather, amendments should be based on factual data which, at least in 
New York State, paint a very clear picture about where we are making 
progress and where our attention needs to be focused.
    What do we know? We know that far more students with disabilities 
are being educated with their non-disabled peers and that these 
students show much better results on State assessments than those 
students who are placed in special classes all day. In New York State, 
this change was brought about by moving away from a focus on process 
requirements and instead focusing relentlessly on performance.
[GRAPHIC] [TIFF OMITTED] 80206.001

    Recent data indicate that the performance of students who 
participate in the general education environment for at least 40 
percent of the day perform at a much high level than those who are 
removed for over 60 percent of the day to receive their special 
education services. On the charts that follow, scoring at Level 3 or 
above reflects the attainment of all the appropriate learning standards 
for that grade level, Level 2 represents partial attainment, and 
performance at Level 1 indicates that none of the grade level standards 
have been mastered.
[GRAPHIC] [TIFF OMITTED] 80206.002

    We know that the expectation of adults for students with 
disabilities has generally been far too low. As a result, students have 
often been denied an opportunity to participate in rigorous curriculum 
and assessments. We know that students with disabilities, when given 
the appropriate supports and opportunity to access the general 
education curriculum, can achieve at much higher levels than adults 
would predict. Students with disabilities are performing at 
dramatically higher levels on our State Regents examinations, which are 
high school exit examinations.
[GRAPHIC] [TIFF OMITTED] 80206.003

    More than 11,500 students with more severe disabilities 
participated in our State alternate assessment, and, for the first 
time, their progress is being measured against State standards. In 
elementary grades, achievement results on State assessments are 
improving.
[GRAPHIC] [TIFF OMITTED] 80206.004

    In the end, the best indicator that a child will receive a quality 
education is having a well-trained teacher. We have a shortage of 
qualified special education personnel and we are having difficulty 
retaining the personnel we have. Studies by our teachers unions have 
indicated that special education teachers are increasingly frustrated 
with the amount of time they must spend on process requirements. They 
also feel intimidated by the adversarial environment they feel they are 
placed in by the evolving quasi-judicial nature of due process 
provisions. We must seize the opportunity of this reauthorization to 
address this issue.
                               transition
    We have learned that quality transition planning and implementation 
make a significant difference in the likelihood of success as an adult. 
We know this from our performance data as well as from what students 
have told us in our post school indicators study.
     In New York, we have been studying the connection between good 
transition planning and supports and student success. We have collected 
important information from students about how they perceive their 
school experience. For instance, we know that students with 
disabilities receive information in school about careers much later 
than their non-disabled peers. They discuss their future plans with 
their parents much later in their school years, receive career 
information at schools much later and decide about continuing their 
education much later in their school years than their non-disabled 
peers.
[GRAPHIC] [TIFF OMITTED] 80206.005

    Students who receive standards-based diplomas have much more 
successful transitions into adult life. Eighty-three percent of 
students with disabilities in New York State receiving Regents local or 
IEP diplomas in the year 2000 made a successful transition into 
postsecondary education or employment, as compared to 75 percent in 
1995.
[GRAPHIC] [TIFF OMITTED] 80206.006

    By focusing on transition planning, there is an increased awareness 
by schools of the post-school plans of students. In New York, from 1998 
to 2001, the number of unknown plans dropped from 27 percent to 14 
percent. The postsecondary education plans of seniors with disabilities 
rose from 38 percent to 44 percent and post-school employment plans 
rose from 22 percent to 26 percent.
[GRAPHIC] [TIFF OMITTED] 80206.007

[GRAPHIC] [TIFF OMITTED] 80206.008

    More than 62 percent of our students with disabilities are 
graduating with high school diplomas that require passing of exit 
examination.
[GRAPHIC] [TIFF OMITTED] 80206.009

    For the class of 2000, 32 percent of graduates with disabilities 
went on to college, compared to 17 percent in the class of 1995.
[GRAPHIC] [TIFF OMITTED] 80206.010

    Student participation in paid or unpaid work experiences during 
high school increased from 37 percent in 1995 to 80 percent in 2001.
    In New York State, special education and vocational rehabilitation 
are administered within the same office of the State Education 
Department. By continuing to create better communication between the 
two programs, we have increased the proportion of youth served in our 
caseload by 33 percent in the last 5 years.
    There are also areas where date indicate we need to focus our 
attention. We know there continues to be a disproportionate placement 
of minorities in special education, although with the recent 
performance-based focus on this issue in New York State, we are 
starting to reverse these trends.
[GRAPHIC] [TIFF OMITTED] 80206.011

    When placed in special education, minorities are placed in special 
classes and programs at much higher rates than are other children.
[GRAPHIC] [TIFF OMITTED] 80206.012

    Children in our poorer districts are more likely to be placed in 
special education and perform at significantly lower levels of 
achievement.
[GRAPHIC] [TIFF OMITTED] 80206.013

    We know that middle school results for children with disabilities, 
no matter what type of district, are alarmingly low.
[GRAPHIC] [TIFF OMITTED] 80206.014

    From 1997 to 2000, enrollment of students with disabilities in 
institutions of higher education increased by 6,700.
[GRAPHIC] [TIFF OMITTED] 80206.015

    Increasing numbers of youth are being placed in jobs through the 
vocational rehabilitation system. In the 2001-2002 State fiscal year, 
3,063 youth with disabilities were successfully employed. We also know 
that in-school work experience pays off. Students placed by our 
vocational rehabilitation program who had been involved in work 
experiences in school average as much as $1 an hour more in their 
initial competitive employment than youth who did not. In the first 
year, they generated more than $36,840,000 in annual income in return 
for the $11,555,000 their services cost the system.
                         general recomendations
    Based on what the data tell us about the implementation of IDEA, 
and what we have learned about how to improve performance in key areas 
of a student's educational program, we make the following 
recommendations:
    All students must be included in all systems of accountability for 
student results.
    Accountability must focus on key performance indicators.
    Data must be collected on key performance indicators and 
disseminated widely in plain language to stakeholders and the public 
at-large.
    Resources must be targeted to areas of need based on key 
indicators.
    The alternate assessment systems established by States as the 
result of IDEA 1997 must be allowed to evolve and change for the next 
several years. However, the participation of students with severe 
disabilities in an alternate assessment system is a positive 
development that must continue.
    Monitoring and oversight for program delivery at both the Federal 
and State levels must be allowed to focus on the mechanisms for 
improving outcomes for students, rather than devoting such extensive 
time and resources to the less significant, but numerous, process 
requirements.
    Prevention and intervention services must be established and 
aligned so everyone in need has access to them. The reauthorization of 
IDEA must be aligned carefully with the No Child Left Behind Act.
    This reauthorization must focus on the looming problem of special 
education staff shortages. The age of the teaching force, in 
conjunction with the burdensome requirements of being a special 
educator, has led to predictions of tremendous staff shortages in the 
near future. To address the increasing rates of staff turnover and the 
continued movement of our most talented and expert individuals out of 
the special education delivery system, the IDEA must:
    <bullet> Support creative incentives to help attract and train the 
next generation of personnel and allow institutions of higher education 
to expand and strengthen pre-service programs in both general and 
special education;
    <bullet> Provide States and LEAs with non-competitive funding to 
provide in-service training and technical assistance for school 
personnel and families; and
    <bullet> Reduce paperwork and other burdens on teachers.
    <bullet> Teacher preparation program content must be infused with 
greater emphasis on academic achievement and performance-based 
accountability approaches.
    <bullet> States must be able to require local districts to target 
IDEA funds to specific compliance issues when evidence is available 
that problems have gone unresolved.
                  recommendations regarding transition
    In addition to the above general recommendations, we make the 
following recommendations specific to transition and interagency 
efforts:
    The role of independent living centers and community rehabilitation 
providers in the transition process should be recognized and augmented. 
Funds should be directly designated to facilitate participation of 
State vocational rehabilitation agencies in transition planning and to 
enable community programs and independent living services to be brought 
into the schools. Too much burden is placed on school personnel, who 
may not be the most qualified to provide transition services.
    Create a pool of targeted monies from IDEA, VR, the Higher 
Education Act, TANF, Ticket to Work, VATEA, NCLB, WIA, and Medicaid. 
These monies would be allocated to support the services necessary for 
students to make a successful transition from school to work, post-
secondary education and independent living. The funds would be flexible 
and not tied to current bureaucratic rules for each program but would 
have to support the services on the transition plan.
    We recommend funding of community-based work experience programs at 
the secondary and postsecondary education levels to enhance the 
currently limited capacities of these programs to provide such 
experiences. At the secondary level, students with severe disabilities 
are limited from participation in after school and summer employment 
experiences. Additionally, when youth with severe disabilities attend 
postsecondary education, there is a need for resources for career 
internships or summer employment that could help these students learn 
to apply their classroom knowledge and build their resumes for job-
seeking once they complete college.
    Provide incentives to education entities to participate as 
employment networks under Ticket to Work.
    Allow school work experience and career training programs to be 
Ticket reimbursable programs as part of a broader transition system.
    Case management should be considered a core service provided to all 
transition-aged youth who either are or are becoming entitled to 
disability benefits. The early introduction and ongoing discussion of 
benefits planning and employment strategies within the school setting 
would serve to alleviate many of the issues families and youth face 
when preparing for the transition to adult life.
    Simplify documentation and eligibility requirements between those 
systems that should be involved with transition to remove one of the 
main barriers to timely and smooth transitions from one system to 
another. In particular, students eligible under IDEA should be 
automatically eligible under vocational rehabilitation.
    Establish capacity building grants to allow SEAs to develop follow-
along data systems for youth transitioning from school so we can track 
youth to determine the level of success in transition and allow States 
to identify strategies that work and areas where the systems are not 
succeeding.
    For students with severe disabilities:
    <bullet> The developmental process is more complex. There is a need 
to individually design accommodative services, assistive technologies 
and 1:1 supports and make them available not only in school programs, 
but also in community, postsecondary education and workplace settings, 
with provisions to readily replace technologies as they evolve.
    <bullet> Career development cannot take place in the absence of the 
development of independent living skills and supports. Services should 
be targeted to the student as well as the families/caregivers involved 
in the student's life. It is vital to keep the processes, procedures, 
and requirements for benefits and services simple so that consumers can 
concentrate more readily on employment options and opportunities.
    The reauthorization should support innovative service delivery 
models between school and agency programs. Consideration needs to be 
given to how IDEA funds, as well as funds for other programs that have 
obligations to young people with disabilities, can be constructed 
around the needs of children. Research shows that when community-based 
services, such as mental health and health services, are readily 
available to schools, indicators of students' quality of education 
improve. The current IDEA supports collaboration, but does little to 
address funding and program responsibility disparities that are true 
barriers to interagency collaboration.

    The Chairman. Thank you all for very helpful testimony.
    We have 40 minutes before the vote, and so we will just 
divide that up between us, and I would ask the staff if they 
would do so.
    First of all, I would like to ask Mr. Shaw, on these 
training programs, you talked at the end about moving money 
from training, D to B, and we are interested in this. But what 
are the qualities, what are the things that you find you have 
had great success in terms of recruitment, in terms of 
retention, in terms of the training, great need on that? What 
is it specifically, or will you give us as specifically as you 
can, what are the things that ought to be altered or changed 
besides sort of resources--we want to know that, too--that you 
think could be helpful to us?
    Mr. Shaw. Certainly. We changed our program. We keep 
hearing about higher standards. We raised the bar very, very 
high. We demanded all of our students stay for 5 years and get 
a bachelor's and master's degree. And I have to admit to you 
that I was one who was fearful that we had just put ourselves 
out of business. Why come to the University of Connecticut with 
all these requirements, 5 years rather than 4 years, and so on, 
when you can go someplace else and get a degree much easier and 
much quicker? And I was totally wrong. Students have flocked to 
quality. Students these days have lots of options on what to do 
in their professional career. They are not going to go into 
education if it is easy, if it is not seen as a profession, if 
it is not challenging. We are attracting students from all over 
the country who want to come to our program. Our students are 
equal to or better than every other students in any other 
program in our university. Our students in terms of grade point 
average, in terms of SAT scores are comparable to chemistry 
majors and psychology majors and English majors and so on.
    So raising the bar, saying education, special education, as 
we have heard from this panel, is a tremendously demanding job. 
This is not for the faint-hearted. Unless we train people to 
meet the demands that you have heard talked about here, IDEA, 
with its many very productive pieces, will not succeed.
    So to specifically respond, our internship has proven to be 
the most effective piece of the program. In their master's 
year, they spend 20 hours a week in the schools. This is after 
student teaching. They are acting as change agents and leaders. 
Our students learn how to be professionals, experience the 
professional role, are treated like professionals before they 
leave our institution. All of the follow-up data we have done 
has indicated that is the best piece.
    Another piece is the fact that all of our students have 
extensive experience in inner-city schools. As Senator Dodd can 
tell you, we are out in the country out in Storrs, and yet we 
have made collaborative arrangements with the Hartford schools 
and other schools so that our students have learned to deal 
with the diversity, have learned to deal with other cultures, 
and as the data indicates, have been so excited by the 
opportunities that are afforded in those inner-city schools 
that 50 percent choose--and I mean choose. Our students can 
work anyplace they want. They choose to work in inner-city 
schools.
    So one other piece in terms of philosophy is the idea of 
self-determination. It relates to what was talked about in 
terms of transition. As Senators, you understand self-
determination in terms of politics and countries and other 
places. Self-determination relates to students being given 
control of their lives so that doesn't happen.
    Thank you.
    The Chairman. Mr. Gordon, I know there is a schedule 
conflict, so I will ask any of our panel have specific 
questions for him, feel free to ask them. One that I am 
particularly interested in is: How do you envision including 
the students with significant disabilities, such as with severe 
cognitive disabilities, in an accountability system? You have 
given us a very interesting description about what you have 
done earlier, and these are things which I think are absolutely 
necessary. And then how do you deal with those who are--that 9 
percent, I guess, that is left behind?
    Mr. Gordon. Well, what we do in our system is we ensure 
that every student is assessed, and I mean every student. In 
our system, 52 percent of our special ed. students are able to 
take our regular State assessment; 15 percent take the regular 
State assessment with accommodations. And we push to do that 
because we want to make sure parents know where their students 
stand. Twenty-four percent are assessed through alternative 
measures, which are placed in the IEP, which the parent agrees 
upon, because we are out to be accountable, we are out to help 
students, as Mr. Gloeckler said, have a productive life after 
they graduate. And that is our commitment.
    The Chairman. Yes, Senator Dodd.
    Senator Dodd. I just have a quick question for you, Mr. 
Gordon. I was struck by your concerns about paperwork. This is 
not an uncommon complaint about almost any Federal program. But 
I am curious about some of the redundancies.
    We often hear that the requirements may result from over-
caution by school districts in response to a lack of clarity 
about what actually is required, rather than the Federal 
requirements themselves.
    Could you give us some specific examples of redundant 
paperwork?
    Mr. Gloeckler. Yes. I think part of the extra paperwork 
comes from districts which are not compliant, and the State 
then ramps up the compliance requirements on everybody.
    We had a review a couple of years ago, and there were a few 
pages which were not signed. So that was a compliance 
exception, something was not dated, that kind of thing. But I 
believe that we are asking about the wrong things, and we are 
wasting a lot of people's times. Let me give you one specific 
example.
    In the 11 years that I have been in this school district, 
we have not had one single due process hearing. Not one, and it 
is a district of 50,000 students. But guess what? Nobody ever 
asks us about that. So, to me, the compliance isn't oriented 
about asking the customer, Are you satisfied with the services? 
It is about checking this, that, and the other thing. So I 
think we are missing the boat there.
    Senator Dodd. That is a very interesting point.
    Thank you, Mr. Chairman.
    The Chairman. Anything else of Mr. Gordon?
    Senator Reed. Mr. Gordon, when you speak to administrators 
and to parents, you hear about two different systems. The 
administrator is talking about one that is overly regulated, 
overly bureaucratized, et cetera. Parents, on the other hand, 
essentially have to fight for any service they get for their 
children, and if they are not articulate and educated, the 
battle is probably impossible. This suggests that at least the 
perception of parents is that administrators are not actively 
trying to make the system work for children and parents. To get 
the education for their children, that is an effort that 
parents have to make.
    I don't know where the truth lies.
    Mr. Gordon. I think you make a good point, and one 
suggestion I would have is that we should ask parents what they 
think, we should ask the customer what they think of the 
services.
    One other suggestion I would have. The whole adversarial 
relationship that gets built up between the system and the 
parent I think could be helped a lot with some requirements for 
the IEP meeting, which is the parents' first encounter with the 
system, to have that heavily facilitated, have someone who is 
really trained. We use a system called intraspace bargaining 
for our collective bargaining, and it is very carefully--the 
person facilitating is very carefully trained to get to a win-
win so that the parent meets the system in a positive way so 
that they are working toward a solution. Too often now, 
attorneys come in and this and that. I think that could make a 
big difference.
    The Chairman. Senator Clinton.
    Senator Clinton. Well, I didn't have the benefit of hearing 
Mr. Gordon's testimony personally, but I have read it and I am 
very impressed by what you have accomplished in your district. 
I hope as we move forward with this process that your common-
sense experience and examples can help guide us, because 
clearly what we are trying to figure out, as Senator Reed said 
so well is, how we remove the adversarial conflicts, focus on 
outcomes for each child, and create the smooth transition 
process that Commissioner Gloeckler talked about. So I 
appreciate what you have already done to show us the way.
    Mr. Gordon. Thank you very much.
    The Chairman. Just one question, Mr. Gordon. Do you believe 
the overemphasis on process and the underemphasis on student 
progress is anecdotal or endemic? Do we need to change the 
statute or regulations in order to reorient special education 
to focus primarily on student achievement?
    Mr. Gordon. Well, I think the compliance system does need 
to be unpacked and repacked to make sure that what is in there 
is both necessary but also are we asking the right questions. I 
think we can and should increase accountability for student 
outcomes. Getting rid of the paperwork will allow more time to 
focus on that.
    The Chairman. Maybe we can be back in touch with you about 
the kind of changes that ought to be made.
    Mr. Gordon. Yes. Happy to help. Thank you very much.
    The Chairman. You are excused. Very, very helpful.
    Ms. Brown, I wanted to talk to you just about your child a 
bit, if we could, about sort of at what point do you think the 
school should have been addressing your son's transition needs, 
how could they have been more effective, what should they have 
emphasized? In retrospect now, what could we learn from this 
experience?
    Ms. Brown. Yes, sir. Actually, a principal in the school 
that Paul was attending in fourth grade began addressing his 
transition needs, except that he was ready to relegate Paul to 
something that was not going to focus on the academics but was 
going to focus on a functional curriculum. I said that it was 
not about some kind of white-collar notion that my son had to 
attend Harvard. I was really open to all of my children really 
choosing career goals that were fulfilling to them. But we know 
in today's society and today's work environment you must have 
some kind of postsecondary education.
    So that was an early address of transition, but it was one 
that really, again, what other panelists have talked about, 
focused and had an underestimation of the ability of students 
who have been found eligible for special education.
    I think for my son, because of his needs and because he was 
a tremendous challenge behaviorally to the school system, the 
needs were continuously focusing on his behavior. I think it is 
very interesting that we compare what schools are willing to 
focus on for students with physical disabilities. They are very 
clear that related services are not to cure a child of their 
inability to walk. They are only to improve the efficiency of 
their ability to benefit from academic instruction.
    When we look at children with behavioral disabilities, who 
I think end up being really the hot focus around 
reauthorization, our experience has been that the effort has 
been to change his disability. I recently went through all of 
Paul's school records in preparation for some additional 
vocational testing by the adult service system, and I was 
struck again at the continual efforts to change his behavior, 
to extinguish his impulsivity, to completely extinguish all of 
the inappropriate things that Paul will ever say. That is 
really unreasonable. While certainly, especially today, when I 
go to an airport with Paul, we do a lot of preparation around 
what not to say. You know, I don't even tell him nowadays to 
write it down. That used to be a strategy. It is just like: 
Hold it. Hold your thoughts until we are home.
    So it is not that, again, I would like Paul to be kind of 
100 percent on that, but he is not able to. He still says 
really big gaffes. They become bigger the bigger he is. He is a 
big fellow, and I think is sometimes intimidating. So I think 
that is another area where we have to, again, focus on not 
extinguishing those behaviors and really focus on the 
academics.
    Then we look at the piece that was brought up by Mr. 
Gloeckler around, well, what are the other agency 
responsibilities? On the one hand, as a parent I feel very 
comfortable that the buck stops at the Department of Education 
in terms of transition, because somebody has to take that 
ultimate responsibility. But we end up with a State-by-State, 
how much are States willing to spend on services for adults 
with disabilities. I think that is where the unevenness comes, 
because there just are no services. Actually, for my son Paul, 
I will be very happy if we get some job support services for 
him. At the time if our family were to be all killed or 
whatever, Paul would probably be homeless very quickly because 
the level of his disability does not bring him to the top of 
the very long waiting list. Those are State resources. I don't 
know what the Feds can do about that other than, again, if 
there is some type of incentive package that can be provided to 
States.
    The Chairman. I have just two quick ones. Ms. Mayerson, you 
mentioned that States should be sanctioned for noncompliance. 
Could you outline quickly what sanctions do you suggest to 
bring States into compliance?
    Ms. Mayerson. I think it is very important, as other 
witnesses have said, that the States be held accountable for 
outcomes. I am happy to report that there is a group of 
stakeholders that are meeting regularly and coming up with--and 
I believe, yes, Mr. Gloeckler is one of the people on that 
committee--to come up with a focused monitoring plan which 
would really focus on outcomes.
    The important thing about focused monitoring is not only 
the focus on outcomes but that there are specific benchmarks 
for compliance so everyone knows what the standards are and 
that there are triggers so that sanctions will be applied if 
certain triggers are not met. I think it is going to be much 
easier for States to understand what the rules are and 
hopefully for the Department of Education to be able to 
institute some of its sanctions.
    I would like to add, though, that in addition to focused 
monitoring, we are very specifically proposing that the 
Department of Justice come into this field, like in every other 
area of civil rights law. And we are suggesting a corollary to 
the 1964 Civil Rights Act where students and their parents were 
able to bring complaints directly to the Department of Justice 
in desegregation cases. We would like the same kind of 
authority in the IDEA.
    The Chairman. That is very helpful.
    Finally, Mr. Gloeckler, you mentioned that New York uses a 
performance-based approach. What type of performance measures 
does New York use? How does it measure the outcomes for 
children who have more significant cognitive disabilities or 
who are mentally retarded?
    Mr. Gloeckler. Well, we do have a performance-based 
approach, and it is based on what we think are key performance 
indicators, which means that we have had to whittle down to 
what we think are the most significant issues, and that is what 
we focus our own accountability measures on. That includes 
achievement. It also includes things like attendance. It 
includes things like dropouts, disproportionate placement of 
minorities in special education, transition issues, and there 
are others. There are 14 all together.
    We include all of our children in our accountability 
system, including the most significantly disabled. We have 
implemented this year for the first time the alternate 
assessment for children with more severe disabilities.
    By the way, I want to congratulate you for that provision 
in IDEA, because for the very first time in New York, and every 
other place in the country, parents who have children with 
severe disabilities now have access to knowing about whether 
their programs are meeting standards and whether their children 
are being educated to a standard. I think that is very 
important for all parents to know.
    So I think performance-based approaches are much more 
effective than procedural-based approaches. Procedures are 
important, but only if the outcomes occur. So I think you can 
apply performance-based approaches to any child and to any 
system, and it is a much better way of measuring it, and the 
public has a much better understanding then of what is actually 
happening with their children.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman. I am going to try 
and keep an eye on the clock.
    Mr.--is it ``Glecker''?
    Mr. Gloeckler. Gloeckler. Too many letters in my name, I 
know that. [Laughter.]
    Senator Dodd. I was curious about the figure that you cite 
in your written testimony that 80 percent of the students with 
disabilities have work experience. I am curious about the kind 
of work experience they get, and especially as we will need a 
more educated workforce in the 21st century, how those work 
experiences relate to the changing economy and how those 
numbers compare with work experiences for children without 
disabilities.
    Mr. Gloeckler. First of all, I think sometimes we think of 
work experience as being instead of academic growth, and I 
think you can combine the two very well. I think it is 
important that we do that so that the work experience is really 
career preparation, not simply work.
    Again, we believe that any person--and, again, I am State 
Director of Vocational Rehabilitation. We believe that any 
person can work and do meaningful work. There is no person that 
can't work. There are very few, literally. So we have to be 
about preparing most of our students, either after or if they 
don't go to postsecondary education, to work in a meaningful 
career.
    Those work experiences we find--summer work experiences 
which are not available to very many students, quite frankly--
are very, very helpful; work experiences through school but not 
necessarily in the school. We find as students who are not 
going to go to postsecondary education that they are very, very 
much more likely to be successfully employed if they have those 
work experiences under supervision.
    Senator Dodd. That goes right to Ms. Brown's concern for 
her son Paul.
    Ms. Brown. Right, but I think also because there has been 
some discussion about students with significant disabilities, 
too many of those students in school through 22 getting 
services, those services are being delivered in the school 
buildings.
    Senator Dodd. Right.
    Ms. Brown. Those are not appropriate places, so they end up 
literally--in Fairfax County, they are baking cookies and cakes 
for other school functions rather than being put out into the 
job market where there is real work and something that can be 
meaningful.
    Senator Dodd. Which is what you do, Mr. Gloeckler, they are 
in real----
    Mr. Gloeckler. That is what we recommend strongly, that the 
work be real work, meaningful work, and in a real environment.
    Senator Dodd. That 80 percent, how much of that is, as you 
say, ``real work''?
    Mr. Gloeckler. Well, I am not exactly sure where the 80-
percent figure you are using is coming from, but for the more 
severely disabled students, we do not have the opportunities 
that we believe should be available. In fact, this is where I 
do believe we need more help from other systems and more help 
from a community-based approach.
    Senator Dodd. Thank you.
    Dr. Shaw, again, thank you for your testimony and your work 
over the years. I am glad to hear you say how attractive you 
have made the academic discipline, the admission standards, and 
the academic requirements at your department at the University 
of Connecticut. What did the State do to encourage this? Was 
this an internal decision made at the university, or was there 
also support from the State?
    Mr. Shaw. It is both. The university made its own decision 
in terms of running its program, but the State did an 
Educational Enhancement Act in 1990 that was a major part of 
this, where for the first time the State committed moneys to 
school districts to raise teacher salaries. As you know, we 
have some of the highest teacher salaries in the country, and 
that was as a result of State involvement in terms of trying to 
raise the profession. At the same time, they provided various 
inducements to new teachers. In addition, they provided raised 
standards, test scores and grades. They provided for increased 
certification requirements, and they also--it is the best 
program. It is an induction program to support and evaluate 
teachers in the first couple of years.
    So, yes, it is a comprehensive process, and in this case, 
what the State did and what the University of Connecticut did 
worked hand in hand to do a tremendous job raising what special 
education could do and what those teachers could do when they 
left our institution.
    What I hear on this panel reinforces that special 
education, fulfilling mandates of IDEA, is difficult, no 
question. But the data that I shared indicates well-trained 
teachers can do that. Well-trained teachers--that data boggled 
my mind. Well-trained teachers found their load manageable. 
Poorly-trained teachers don't last and cannot manage.
    Senator Dodd. I know that this isn't specifically your 
area, but I am curious about how to help achieve what Mr. 
Gordon said that they have achieved in Sacramento, to reduce 
the adversarial situation. To what extent do teachers play an 
important role in this area?
    To what extent do we help teachers to work with both 
special and general education students and families to explain 
what IDEA is about so that we don't have a sense of pitting 
special education and general education against each other?
    Mr. Shaw. I teach a course--Policy, Law, and Ethics in 
Special Education--dealing with these real-world situations 
that teachers find themselves in, spending an awful lot of time 
on helping teachers develop their ability to work with the IEP 
process and to work with parents in a productive way.
    But as you point out, particularly in rural areas--I will 
give you a specific example, not too far from the university, a 
school district where there were two autistic twins, each twin 
was a Mill in that school, in that town. What I see happening 
again and again----
    Senator Dodd. Please explain that, a Mill rate.
    Mr. Shaw. Yes. Thank you.
    Senator Dodd. A factor of budgets and tax.
    Mr. Shaw. I do a lot of work with the IEP teams in schools 
across the State. I have been in most of them. There is a 
problem that snow removal and special education are the only 
areas that the town can't control in their budgets. It is an 
ongoing problem where special education is often over budget, 
and school boards get pressure and school administrators get 
pressure, and they put pressure on teachers.
    Again, it comes down to you have the teacher at the fulcrum 
between trying to meet the needs of the law, trying to do what 
is right for the child, and many, many school administrators 
telling them you can't do this and you can't do that and so on.
    That, once again, comes down to, on one side, full funding 
of IDEA and taking that pressure off of those teachers and 
allowing this process to work, and also having teachers who 
have the skill to deal with this very, very challenging 
interpersonal and professional situation.
    Senator Dodd. Thank you very much. There has been no 
stronger champion of this than our colleague from Vermont, so 
let me turn to Senator Jeffords.
    The vote starts at 11 o'clock. We will probably go a little 
bit over so that everyone gets a chance to speak. I apologize 
for going over. Those are very important answers.
    Let me go to Senator Jeffords, then you can--I apologize, 
Ms. Mayerson. Go ahead.
    Senator Jeffords. I am going to ask you a question, anyway, 
Ms. Mayerson, so you can----
    Senator Dodd. You can give any answer you would like to any 
question that was raised.
    Senator Jeffords. Answer his first. [Laughter.]
    I was one of those that, as you know, originally wrote the 
bill and, thus, was there when we went through the legal 
process of examining the court cases, and then we had 
established the constitutional right to a free and appropriate 
education. What concerns me is that we don't seem to see that 
being used in an effective way to get much more rapid 
compliance with a free and appropriate education, and I 
wondered what it is we need to do to try and have it broadly 
ensure things and court-enforceable things. Can you give me an 
answer as to what we need to do?
    Ms. Mayerson. Well, I think all the things that have been 
talked about today are incredibly important. I was particularly 
focusing my remarks on enforcement. I do believe that there 
should be an enforcement system that the school districts and 
the States know what it is, they know what they have to 
achieve, and they know that they will be held accountable.
    As it is right now, the monitoring by the Federal 
Government takes place, certain things are found out of 
compliance review after review after review after review, and 
nothing is done. So I pose the question to all of us: If we got 
tickets for violating the 55-mile-an-hour speed limit and no 
one ever came to collect and it happened over and over and over 
again, how effective would that law be? So I think enforcement 
is really key.
    I think it is incredibly important to have knowledgeable 
teachers, and I want to just for a minute go back to Rachael 
Holland. The difference between well-trained teachers and 
teachers that were open, receptive, and excited about teaching 
Rachael and the teachers who really didn't know anything about 
the field caused not only a difference in her being welcomed, 
but also in how much they thought needed to be done. Because it 
is often the people with the least education that are less 
prepared who think that it is going to be this tremendous 
burden. Then you have a well-trained teacher, and they know 
exactly what to do.
    So you have this situation with Rachael, where from 
kindergarten on, the school district was saying she was 
disruptive, she was not able to learn, she was retarding other 
children. Then you have positive, educated experts that come 
from programs like Mr. Shaw's, and they are saying she is an 
exciting student to teach, she has got all kinds of potential, 
her behavior is wonderful.
    So I think it is really, really key that the 
administrators, of course--and we have very good ones here--
lead the charge in terms of the attitude that people are going 
to have in the district. The teachers being prepared makes a 
tremendous difference. Then in the final count, it is a civil 
rights law, and it has to be enforced like a civil rights law.
    Senator Jeffords. Well, how do we enforce it like a civil 
rights law?
    Ms. Mayerson. Well, we spoke about changing the monitoring 
system. It seems like there is a lot of agreement to focus on 
outcomes and to make the Department of Education follow through 
when it finds a district in noncompliance, actually follow 
through with sanctions.
    One of the sanctions that is currently in the law is 
partial or total withholding of funds, and that has 
historically been a sanction that is just never used.
    In 1997, we put in another sanction which was referring 
cases to Justice from the Department of Education. Actually, 
that has never been used.
    I think both of those need to be bolstered, but I think 
there is another thing that I am proposing in my testimony, and 
that does come directly as a corollary from the 1964 Civil 
Rights Act, and that is to allow parents who have systemic 
complaints that affect classes of students in their districts 
to go directly to the Department of Justice with their 
complaints. I think that would very much emphasize the civil 
rights nature of the law, that the complaint would not 
necessarily get caught up in quite as much bureaucracy as what 
happens in the Department of Education, and that parents would 
not be so dependent on agency effectiveness in order to make 
sure that their children's rights were being pursued.
    Senator Jeffords. Let me go just one step further on that, 
and that is, we now have underfunding; we have what we promised 
and underfundings, which the States, I guess, are obligated to 
provide. How do we enforce that? What should we do here to make 
it possible for the courts to get in and say, ``Hey, State, you 
are not spending the money you are supposed to for an 
appropriate education, do it.''?
    Ms. Mayerson. Well, I think that, of course, everyone on 
this panel I think would agree that more money would be better, 
and there is no question about that, and I know this is being 
considered.
    But I also think that when you have a civil rights law, you 
have procedures to measure, you have benchmarks, and then you 
have triggers for enforcement if the benchmarks aren't made. I 
think the thing about focused monitoring is that at least the 
benchmarks are clear. Students have to be treated in a certain 
way and have certain outcomes, or you are going to have to pay 
a penalty, or you are going to have to correct your action 
without paying a penalty. But something has to happen.
    What we have right now is chronic noncompliance in certain 
areas.
    Senator Jeffords. I know, and that must be very, very 
frustrating. It is for us. I want to figure out how we can make 
it painful not to act.
    Mr. Gordon, do you have any comments?
    Senator Dodd. Mr. Gordon is not here. This is Mr. Shaw.
    Senator Jeffords. Oh, I am sorry. Mr. Shaw.
    Mr. Shaw. Follow the money, I guess is the--if it did not 
cost more money for school districts to serve students, they 
would do a whole lot better job. So if IDEA was fully funded, 
Part B, then the pressure on school personnel not to provide 
services would be released, and good personnel working with 
parents at those IEP meetings could meet all the requirements 
and provide for positive outcomes. But the issue right now is 
the fiscal issue, and in terms of in a regulatory way, I don't 
know how you deal with that because it is done from word of 
mouth from the administrator to the school personnel not to 
provide free appropriate public education because it costs 
money.
    Senator Jeffords. Mr. Gloeckler.
    Mr. Gloeckler. Yes, I just want to make a comment because I 
receive monitoring in New York State, and we have issues that 
are longstanding and we acknowledge that. In fact, we tell 
everybody else about it.
    What has not happened up until now as part of the 
monitoring process is the offer of support to resolve the 
problems. In other words, problems are identified. People leave 
it up to the situation that was already there in order to 
resolve it. And you, through the IDEA, provided tremendous 
resources and research and technical assistance that is 
scattered all over the place right now, but not targeted to the 
problems that have been identified. New York would be very 
supportive of, if you find a problem, that is fine, let's fix 
it; but come in and help us with resources and technical 
assistance and research and expertise to get the problem 
resolved.
    So I think targeting the resources available in IDEA to the 
problems that have been identified in a very focused way that 
is strategic and is based on accountability will, I think, make 
a great deal of difference.
    Ms. Mayerson. Could I just add one thing to that?
    Senator Jeffords. Certainly.
    Ms. Mayerson. In contrast to that, in California the 
Federal Government has found California out of compliance on 
several issues for many years. There has been a tremendous 
amount of technical assistance that has gone from the Federal 
Government to the State, but there hasn't been compliance. I 
think that until the States really take compliance seriously, 
meaning that they know something will actually happen, you are 
not going to have States come into compliance.
    I think that it is very important to have technical 
assistance. I think it is very important to have capacity 
building. But at the end of the line, there has to be a 
consequence. It is just the same as any other law.
    Senator Jeffords. Thank you.
    Senator Reed.
    Senator Reed. Thank you, Senator Jeffords.
    Mr. Shaw, you have described a very progressive and 
effective program that includes clinical training and 
involvement in urban schools, not, the typical upscale suburban 
school, which has been very effective. It seems so obvious to 
me that that is the way to proceed. But I would guess you are 
the exception to the rule, that most schools of education are 
locked into a 1950s approach to training teachers to go into 
1950s classrooms with, you know, Mom and Dad and the nuclear 
family and special education children not even in the 
classroom.
    Can you comment on that?
    Mr. Shaw. I wouldn't quite put it that way. But, yes, I 
think you are correct. The program we put together, it took 5 
years of effort and debate and difficult times. It is very, 
very difficult to implement this kind of program. It requires 
us faculty to get out into these inner-city schools. It has 
required major, major efforts on the part of many folks, and 
even though the literature talks about internships and 
professional development schools and 5-year programs, very few 
places have been able to put them into place, and those that 
have put these into place--they talk about they have 
professional development schools. They really don't have the 
kind of activity that will provide for the simultaneous renewal 
I was talking about.
    So you are right, we are rare. And it is difficult. The 
State, as most States, is in fiscal difficulty. I had a special 
education position that was yanked from me a day before I was 
going to bring people in to hire. We have been understaffed in 
our special education program chronically for the last 6, 8 
years.
    So this program is very labor-intensive on the part of 
faculty. It costs very much more than the typical program. My 
institution tells us certify more teachers but you have no more 
resources. And so, once again, I really urge you to increase 
Part D funding, increase requirements that programs have these 
kinds of strong elements in place, because everything I have 
heard here today reinforces that IDEA can work but only if you 
have very, very well-trained, skilled teachers.
    Senator Reed. Well, I share your conclusion, and I think it 
is shared by most of the panelists, if not all of them. In 
fact, my view is that the greatest lever we have is 
professional development, because, otherwise, it does become 
simply a bureaucratic chase to find the services and the right 
teacher and the right everybody who is sensitive to the needs 
of the child and the responsibilities. I hope we can follow 
through.
    Ms. Mayerson, do you want to respond?
    Ms. Mayerson. I just wanted to add to that--and I don't 
know if it was clear--that you also, of course, need to work 
with the regular ed. teachers and have crossover programs with 
regular ed. teacher training to make sure that those teachers 
are familiar with the children and the learning and the 
educational strategies.
    Senator Reed. That was my question, too.
    Mr. Shaw. Yes, our program is called an integrated 
bachelor's/master's, and the integrated is--the student's 
secondary, elementary, and special education are integrated in 
course work, in seminars every single semester for the 3 years, 
faculty of special education are teaching general education 
students and so on. These folks are learning what the other 
deals with, and these folks are learning to work with each 
other over the course of 3 years.
    Our general education students are also--and, again, we 
have some pretty good data--are also much more able to deal 
with and are much more willing to work with these special 
education students when they are in their classrooms.
    Senator Reed. Just a quick follow-up, Mr. Shaw. Again, I 
think what you are doing is probably the exception to the rule 
of most college or teacher preparation schools in the country.
    Mr. Shaw. Right. But, again, I do want to differentiate. A 
lot of places do have dual certification, and I want to 
indicate personally that is not what I am talking about. I am 
very concerned when we have dual certification, which has been 
the route that many places have gone to try to deal with this. 
Because special education is more challenging and more 
difficult, dual certification may mean we are training pretty 
good general education teachers, but we are not training folks 
who are staying in special education and committed to special 
education as we are.
    Senator Reed. Just a quick comment, because the time is 
expiring--or has expired. It goes back to the perception of the 
litigious nature of IDEA, and your testimony and the materials 
you submitted, Ms. Mayerson, suggest that, and Mr. Gordon 
indicated that in his district there were no due process 
hearings over several years. We have this image, and, in fact, 
this law is attacked by many people as just an invitation for 
lawyers to make money off of school systems.
    Ms. Mayerson. I don't know any real rich special ed. 
lawyers, I have to tell you.
    Senator Reed. But you realize that is the perception that 
is out there, and part of this reauthorization will be to deal 
with that perception. So I appreciate your data.
    But, also, I think we have to be conscious about trying to 
do things that aid parents to get services for their children 
without availing themselves of a lawyer. Mr. Gordon suggested 
earlier intervention. Ms. Brown, you might have a comment.
    Ms. Brown. I think about the litigation, I mean, in all the 
years that we were working with the school system, we actually 
could have gone to court on many issues. We probably had more 
resources than most people to do that. But we didn't because it 
is a big step to do. It really oftentimes does not help. We 
even had a situation where our son and other children in his 
school were being categorically denied the ability to run for 
student government, and another time where none of the children 
in the BED program were going on the trip to Philadelphia. The 
principals passed that on to the teachers, and rather than--I 
think I had a legitimate right to go to the Office of Civil 
Rights. I actually figured, What are they going to do? They are 
going to sit down with these people and have a meeting, and 
basically I did that. I brought in a colleague. We sat down 
with the people who were responsible, and we discussed what is 
going to be their corrective action plan, which I understand 
that has been corrected.
    So I think while we talk about what could be the litigious 
nature, I think we have to also realize that there are many, 
many, many more instances where people are trying to work 
things out or, in the case of people who just don't have the 
emotional resources, are kind of letting it go.
    Senator Reed. I want to yield back my time. My colleagues 
have been most kind.
    Senator Dodd. Senator Jeffords had another question.
    Senator Jeffords. I would like to ask Mr. Gloeckler about 
the Ticket to Work. How do you see that working in our schools? 
Is it? What do we need to do, if anything?
    Mr. Gloeckler. It is not working now in the schools. I 
believe the rules--you know better than I do, but the rules 
are, I believe, starting at 18. I think it should be younger 
than that. I think it is a missed opportunity to basically 
reinforce the idea that schools educate children to be prepared 
for work, and if we can do that well and have the students then 
move on to meaningful employment and not benefits, then the 
school should be rewarded with that reimbursement just like any 
other employment entity would be.
    So I think we should revisit that whole thing.
    Senator Jeffords. What would you suggest, 16, 14?
    Mr. Gloeckler. You know, picking magic numbers is very 
hard, I have to say. I wish that what we could do is say let 
the decision be made collectively by the parents and the school 
as to when the child is ready to begin that journey into career 
preparation. But it would certainly at least be the age of, I 
would say, 15, 16, perhaps 14, depending on the student.
    What I don't want to see happen and I would really hope 
that if this--if you look into this, that you craft it 
carefully, that we are not having students tracked into an 
employment program inappropriately when they should be moving 
on to postsecondary education and higher academic standards.
    So I think there is that thing that has to be carefully 
crafted, but I think you can do that.
    Senator Jeffords. Well, I would like to work with you 
further on that. I am on the Finance Committee, so I have an 
opportunity, and I also sponsored the bill.
    Mr. Gloeckler. We would love to do that.
    Mr. Shaw. Can I make a suggestion?
    Senator Jeffords. Yes.
    Mr. Shaw. If you tied that into the transition planning 
process, which is clearly timed, and just put that into that 
process and say the transition planning team can use Ticket to 
Work, that would, I think, do a wonderful job.
    Senator Jeffords. Thank you. Thank you very much.
    The Chairman. We are now in the process of--Massachusetts 
is one of the States now implementing Ticket to Work, and it is 
just working well up there; seeing the additional kinds of 
possibilities and tying it into here will make a big 
difference. I don't know why it took us so long to get that, 
Senator Jeffords, who was the leader, and others, Senator Dodd. 
So it is something we want to try and--these are good, helpful 
suggestions on that as well.
    We want to thank you all. It has been very, very helpful. I 
think what you have done is given us some very important 
recommendations. We are going to be back in touch with you. We 
wanted to let you know that this door is wide open, and as you 
see this taking shape and following it, we want your 
recommendations and suggestions. Don't just wait until we pound 
on your door. Just submit them to us here, to me, to any of our 
Members, and our staffs, because we have a very good panel here 
that have thought about this and have seen what is working out 
there. And we want to benefit from this extraordinary 
experience and get this law as correct as we possibly can.
    We thank all of you, and the committee stands in recess.
    [Whereupon, at 11:05 a.m., the committee was adjourned.]
                   Prepared Statement of Nancy Vernon
    The following recommendation is intended to provide equal 
protection for students with disabilities in cases where there have 
been procedural errors made by a public entity affecting a child's 
ability to receive a free appropriate public education and the least 
costly grievance procedural requirements have been attempted. In cases 
involving disagreements with educational placement, types of services, 
etc. or requests for a due process hearing made by the public entity, 
the issue of parental/guardian legal fees paid at public expense needs 
to be further explored.
    Recommendation for improving compliance: The people of the United 
States of America believe that no state be allowed to ``deprive any 
person of life, liberty, or property, without due process of the law; 
nor deny to any person within its jurisdiction the equal protection of 
the laws.'' Laws have been established by Congress to protect the 
rights of children with disabilities to achieve the following:
    (a) To ensure that all children with disabilities have available to 
them a free appropriate public education that emphasizes special 
education and related services designed to meet their unique needs and 
prepare them for employment and independent living;
    (b) To ensure that the rights of children with disabilities and 
their parents are protected;
    (c) To assist States, localities, educational service agencies, and 
Federal agencies to provide for the education of all children with 
disabilities; and
    (d) To assess and ensure the effectiveness of efforts to educate 
children with disabilities.
    Children with disabilities as defined in 34 C.F.R. Part 300 shall 
be provided equal protection to receive an appropriate education at 
public expense as guaranteed by the Fourteenth Amendment. The term Free 
Appropriate Public Education, or FAPE, is defined as special education 
and related services which:
    (a) Are provided at public expense, under public supervision and 
direction, and without charge;
    (b) Meet standards of the State educational agency, including the 
requirements of this chapter;
    (c) Include preschool, elementary school, or secondary school 
education in the State; and
    (d) Are provided in conformance with individualized education 
program (IEP) requirements of this chapter.
    In the event that a parent, guardian or other believes a child with 
a disability is being denied a free appropriate public education, it is 
written in Federal law that a child be entitled to receive due process 
of law. The Federal provisions defining the Individuals with 
Disabilities Education Act, or IDEA, provides measures to ensure each 
child is afforded his or her due process rights. The procedural 
safeguards have been established; however, children with disabilities 
are still being denied their constitutional right to receive an 
appropriate education at public expense. The laws established to 
protect the rights of children with disabilities are not lacking in 
explanation or clarity, nor does ignorance of the law play a 
significant role in preventing a child from receiving his or her 
entitlement. It has become apparent that the laws protecting children 
with disabilities, at times, are literally and flagrantly ignored or 
disregarded, and it has become common practice to ensure enforcement 
and implementation of the law through the litigious process for those 
able to financially support the legal fees incurred as a result of 
retaining legal representation. A child's economic situation is the 
determining factor of whether he or she will receive an appropriate 
education at public expense, and should a child's parent(s) or legal 
guardian(s) have the financial support to initiate the litigious 
process, then it could be argued that a child is not receiving an 
appropriate education at public expense. The cost incurred could be 
astronomical, due to the high cost of legal representation and the 
limited availability of free or low-cost attorneys. Even though parents 
are legally able to initiate and proceed with a due process hearing 
without legal representation, it does not afford the child with fair 
representation, due to the fact that most parents or guardians are not 
legal experts and the public agency being challenged can and will most 
likely retain appropriate legal representation afforded at public 
expense.
    In order to ensure that a child with a disability has appropriate 
legal representation and provided equal protection of the laws, it is 
necessary to establish legal guidelines that will afford a child 
appropriate legal representation should the need for a due process 
hearing be necessary to enforce and implement the laws protecting the 
individual rights of a child with a disability. It shall be written 
into law that a parent(s) or guardian(s) may request the public entity 
to pay for their legal representation in the case a due process hearing 
is initiated; however, this request shall be made in writing and not 
until after the parent(s) or guardian(s) has filed a citizen's 
complaint with the State Educational Agency, or SEA, in accordance with 
Federal and State law, and if the SEA found the district to be non-
compliant, ordered corrective action, and then before or after the 
complaint process the parent(s) or guardian(s) attempted to resolve the 
dispute through mediation, and still the district is non-compliant with 
the ordered corrective action and/or the mediation agreement, a parent 
can then require the public entity pay their attorney fees to ensure 
the child is fairly represented. And the public entity shall pay for 
all reasonable legal fees as the fees are incurred by the parent(s) or 
guardian(s), rather than being dependent on the Administrative Law 
Judge's order that the public entity pay the prevailing parent's or 
guardian's legal fees as defined in 34 C.F.R. Part 300.
    In no event shall this requirement prevent a parent(s) or 
guardian(s) from requesting a due process hearing at any time; however 
it is necessary that the least litigious and costly procedures be 
initiated first to ensure effective and efficient use of public 
resources; therefore the legal fees shall be awarded only after the 
parent or guardian has attempted to resolve the dispute by using the 
citizen's complaint process and mediation process.
  

                                <greek-d>

</pre></body></html>
